<html>
<title> - AFTER SCHOOL PROGRAMS: HOW THE BUSH ADMINISTRATION'S BUDGET IMPACTS CHILDREN AND FAMILIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                       AFTER SCHOOL PROGRAMS: HOW
                    THE BUSH ADMINISTRATION'S BUDGET
                     IMPACTS CHILDREN AND FAMILIES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 11, 2008

                               __________

                           Serial No. 110-81

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                                --------

                     U.S. GOVERNMENT PRINTING OFFICE

41-040 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




















                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware,
Dennis J. Kucinich, Ohio               Ranking Minority Member
Susan A. Davis, California           Peter Hoekstra, Michigan
Danny K. Davis, Illinois             Mark E. Souder, Indiana
Raul M. Grijalva, Arizona            Vernon J. Ehlers, Michigan
Donald M. Payne, New Jersey          Judy Biggert, Illinois
Rush D. Holt, New Jersey             Luis G. Fortuno, Puerto Rico
Linda T. Sanchez, California         Rob Bishop, Utah
John P. Sarbanes, Maryland           Todd Russell Platts, Pennsylvania
Joe Sestak, Pennsylvania             Ric Keller, Florida
David Loebsack, Iowa                 Joe Wilson, South Carolina
Mazie Hirono, Hawaii                 Charles W. Boustany, Jr., 
Phil Hare, Illinois                      Louisiana
Lynn C. Woolsey, California          John R. ``Randy'' Kuhl, Jr., New 
Ruben Hinojosa, Texas                    York
                                     [Vacancy]





















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 11, 2008...................................     1

Statement of Members:
    Castle, Hon. Michael N., Senior Republican Member, 
      Subcommittee on Early Childhood, Elementary and Secondary 
      Education..................................................     4
        Prepared statement of....................................     5
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Prepared statement of....................................     3
        Additional submissions:
            Letter from the National Coalition for Public 
              Education..........................................    42
            Letter from the National School Boards Association...    43
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California, prepared statement of.................    42

Statement of Witnesses:
    Carroll, Michael J., chief of police, West Goshen Township 
      Police Department..........................................    13
        Prepared statement of....................................    15
    Gamble, LaDonna, interim project director, Bridges to the 
      Future Before and Afterschool Program's 21st Century 
      Community Learning Centers.................................     8
        Prepared statement of....................................    10
    Kough, Theresa Vendrzyk, education associate, Delaware 
      Department of Education, After School Programs.............    25
        Prepared statement of....................................    27
    Little, Priscilla M., associate director, Harvard Family 
      Research Project, on behalf of Harvard Family Research 
      Project....................................................    17
        Prepared statement of....................................    19



















 
                     AFTER SCHOOL PROGRAMS: HOW THE
                      BUSH ADMINISTRATION'S BUDGET
                     IMPACTS CHILDREN AND FAMILIES

                              ----------                              


                        Tuesday, March 11, 2008

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Dale Kildee 
[chairman of the subcommittee] presiding.
    Present: Representatives Kildee, Kucinich, Davis of 
California, Payne, Sarbanes, Sestak, Hirono, Hare, Castle, 
Platts, and Kuhl.
    Staff present: Tylease Alli, Hearing Clerk; David Hartzler, 
Systems Administrator; Lloyd Horwich, Policy Advisor for 
Subcommittee on Early Childhood, Elementary and Secondary 
Education; Lamont Ivey, Staff Assistant, Education; Danielle 
Lee, Press/Outreach Assistant; Jill Morningstar, Education 
Policy Advisor; Alex Nock, Deputy Staff Director; Joe Novotny, 
Chief Clerk; Rachel Racusen, Deputy Communications Director; 
Dray Thorne, Senior Systems Administrator; Margaret Young, 
Staff Assistant, Education; Stephanie Arras, Minority 
Legislative Assistant; James Bergeron, Minority Deputy Director 
of Education and Human Services Policy; Cameron Coursen, 
Minority Assistant Communications Director; Minority Chad 
Miller, Minority Professional Staff; Susan Ross, Minority 
Director of Education and Human Resources Policy; and Linda 
Stevens, Minority Chief Clerk/Assistant to the General Counsel.
    Chairman Kildee [presiding]. A quorum being present, the 
hearing of the subcommittee will come to order.
    Pursuant to Committee Rule 12A, any member may submit an 
opening statement in writing, which will be made part of the 
permanent record.
    I will now recognize myself, followed by Ranking Member 
Castle, for opening statements.
    I am very pleased to welcome my fellow subcommittee 
members, the public and our witnesses to this hearing on After-
School Programs: How the Bush Administration's Budget Impacts 
Children and Families.
    I helped write this program back in 1994, when Dick Riley 
was secretary of education and the former governor of South 
Carolina. We had a lot of meetings at the White House at that 
time on this. It is a very important program, and it is a 
program that I have seen the productiveness throughout the 
country. So I appreciate all our witnesses being here this 
morning.
    There is no doubt in my mind in my 32 years that I have 
been in Congress that, without the expert testimony of people 
like yourself, we could not write the quality of legislation 
that we, hopefully, sometimes do. But with your input, we do 
improve the quality of the legislation. So I really appreciate 
your being here.
    Last year Congress increased funding for 21st Century 
Community Learning Centers, the federally supported after-
school program, by $100 million. This has always had good 
congressional support. As I say, I started this in 1994, but 
when we did No Child Left Behind, John Boehner, who was 
chairman of the full committee at that time, worked very 
closely with us, and we included that. So this has always been 
a bipartisan program, and we have kept it that way through the 
years.
    This year these centers will provide services to more than 
1.5 million children and their families, and they are doing a 
good job. As we will hear today from Priscilla Little of the 
Harvard Family Research Project, research shows that good 
after-school programs including 21st Century Community Learning 
Centers improve academic, social and emotional outcomes, 
especially for low-income children.
    Chief Carroll, from Representative Sestak's district, will 
tell us about the difference good programs are making in the 
lives of children in their communities by providing safe, 
nurturing environments after school.
    And I am especially proud that LaDonna Gamble, who directs 
the Bridges to the Future program for the Flint Community 
Schools in my hometown is here to tell us about their 
outstanding work. I had the pleasure of working for that school 
system for 8 years.
    Ms. Gamble, I read in your testimony that one of the ways 
that you make learning fun for students is to teach them 
engineering principles by building catapults. As a former Latin 
teacher, I tried that but was not as successful as you, causing 
some damage in the classroom itself.
    It is beyond me why the president would propose not only to 
slash after-school funding by 26 percent, or $281 million, but 
also to turn the program into a voucher program. There is 
something about that end of Pennsylvania Avenue that vouchers 
seem to be a lure for many of the people who occupied that most 
expensive public housing in the country, the White House.
    By the administration's own calculations, its proposal 
could result in more than 1 million fewer students receiving 
services. That is their calculation. I had hoped that the 
president's final education budget would be an improvement over 
his previous ones, but it is hard to see anything positive 
about increases for Title 1 and special education that don't 
even keep up with inflation or cuts to drug and violence 
prevention and after-school programs, eliminating educational 
technology and career and technical education, and divisive 
private-school and after-school voucher proposals.
    On that last point, I will quote Ms. Kough, our fourth 
witness, who I note was invited by the minority, who has always 
been very helpful in this program. She says, ``The 
administration's current proposal to convert the after-school 
program to a voucher system may force programs to close, which 
would result in more students with no place to go after school. 
The move to a voucher system would undermine existing public-
private community and faith-based partnerships that are working 
well.''
    Fortunately, congressional support for after-school 
programs is bipartisan. In 2005, I joined with Representatives 
Lowey, Regula and Ros-Lehtinen to form the Afterschool Caucus 
to help build support for after-school programs. Today the 
caucus has nearly 80 members, including my friend and Ranking 
Member Governor Castle.
    And earlier this month I joined with Representative Kuhl, a 
member of this subcommittee, to circulate a bipartisan letter 
to appropriators requesting a $250 million increase for after-
school programs.
    So I do not fear for the future of this fine program but 
rather look forward to hearing our witnesses describe how well 
it has worked and how we can make it work better.
    I now yield to the ranking member of this subcommittee and 
my very dear friend for many, many years, Governor Castle, for 
his opening statement.

 Prepared Statement of Hon. Dale E. Kildee, Chairman, Subcommittee on 
          Early Childhood, Elementary and Secondary Education

    I'm pleased to welcome my fellow subcommittee members, the public, 
and our witnesses, to this hearing on ``After School Programs: How the 
Bush Administration's Budget Impacts Children and Families.''
    Last year, Congress increased funding for 21st Century Community 
Learning Centers--the federally supported after school program--by $100 
million.
    This year, those centers will provide services to more than 1.5 
million children and their families.
    And, they're doing a good job.
    As we will hear today from Priscilla Little, of the Harvard Family 
Research Project, research shows that good after school programs, 
including 21st Century Community Learning Centers, improve academic, 
social and emotional, and other outcomes--especially for low-income 
children.
    Chief Carroll, from Representative Sestak's district, will tell us 
about the difference good programs are making in the lives of children 
and their communities by providing safe, nurturing environments after 
school.
    And, I'm especially proud that Ladonna Gamble, who directs the 
Bridges to the Future Program for the Flint community schools in my 
hometown, is here to tell us about their outstanding work.
    Ms. Gamble, I read in your testimony that one of the ways that you 
make learning fun for students is to teach them engineering principles 
by building catapults.
    As a former Latin teacher, I tried that myself, but was not as 
successful as you have been in that endeavor.
    It is beyond me, then, why the president would propose not only to 
slash after school funding by 26 percent or $281 million, but also to 
turn the program into a voucher program.
    By the administration's own calculations, its proposal could result 
in more than one million fewer students receiving services.
    I had hoped that the president's final education budget would be an 
improvement over his previous ones, but it is hard to see much positive 
about increases for Title I and special education that don't even keep 
up with inflation, or cuts to drug and violence prevention and after 
school programs, eliminating education technology and career and 
technical education, and divisive private school and after school 
voucher proposals.
    On that last point, I will quote Ms. Kough, our fourth witness, who 
I would note was invited by the minority--``the administration's 
current proposal to convert the 21st century community learning centers 
program to a voucher system may force programs to close, which would 
result in more students with no place to go after school. In addition, 
the move to a voucher system would undermine existing public, private, 
community, and faith-based partnerships that are working well.''
    Fortunately, congressional support for after school programs is 
bipartisan.
    In 2005, I joined with Representatives Lowey, Regula and Ros-
Lehtinen to form the After School Caucus to help build support for 
after school programs.
    Today, the Caucus has nearly 80 members, including my friend and 
Ranking Member, Governor Castle.
    And, earlier this month, I joined with Representative Kuhl, a 
member of this subcommittee, to circulate a bipartisan letter to 
appropriators requesting a $250 million increase for after school 
programs.
    So, I do not fear for the future of this fine program, but rather 
look forward to hearing our witnesses describe how well it has worked 
and how we can make it work even better.
    Thank you.
                                 ______
                                 
    Mr. Castle. Thank you very much, Mr. Chairman. I am 
pleased, always, to work with you, and I am pleased to have a 
distinguished group of panelists here and many interested 
people, and I think this is an important subject.
    We are here today to examine 21st Century Community 
Learning Centers, which, as you know, provide a variety of 
important services, including education support, community 
service and other enriching activities to many students across 
the country.
    I would like to recognize, obviously, Ms. Theresa Kough of 
my state, and I am pleased to have the opportunity to discuss 
the changes made to the 21st Century Community Learning Centers 
(CCLC) program under the 2001 No Child Left Behind Act and the 
benefits of after-school programs. I hope we can discuss the 
ways in which the program is working to increase student 
achievement and how the program can be strengthened.
    As you know, when NCLB was signed into law, the 
administration of the 21st Century Community Learning Centers 
program was transferred from the United States Department of 
Education to individual state departments of education.
    Since 2002, states have awarded competitive grants to safe 
entities, such as school districts and local and national 
community-based organizations, to offer an array of activities 
to complement regular academic programs to not only improve 
academic skills but also to provide social opportunities.
    In my home state of Delaware, Ms. Kough receives 25 21st 
CCLC programs, which operate in 55 sites throughout the state. 
As Ms. Kough will discuss in her testimony, the number of 
Delaware students enrolled in its 21st CCLC programs has grown 
substantially over the last several years. Delaware students in 
21st CCLC programs have also made a number of academic gains in 
reading and mathematics.
    In Delaware and throughout the United States, the 
importance of after-school programs is apparent. Each afternoon 
millions of students around the nation leave school with no 
place to go because they lack affordable, accessible, after-
school opportunities. In the hours when children are most 
likely to commit or be the victim of a crime, parents and 
caretakers, for a variety of reasons, are unable to arrange or 
afford a better alternative.
    21st CCLC programs give school-age children the option of 
using this time for growth and opportunity instead. In fact, 
according to the Afterschool Alliance, results of evaluations 
and teacher reports have revealed positive trends in behavior 
and achievement for students who regularly attend 21st Century 
Community Learning Centers.
    However, federal funding for 21st CCLC programs was never 
intended to merely keep students off the streets. Instead, the 
program is intended to provide meaningful educational 
opportunities.
    Although there are many positive outcomes associated with 
CCLC's, the U.S. Department of Education reports, which 
evaluated CCLC after-school programs from 2001 and 2004, did 
not find significant improvements in academic achievement.
    Additionally, a third report from the U.S. Department of 
Education and the Institute of Education Sciences found that, 
generally, the program had no impact on reading test scores or 
grades.
    I find these results to be problematic and hope to hear 
from the witnesses their suggestions for raising academic 
standards within this important program.
    Additionally, before considering the administration's 
proposal to transform the program into an after-school and 
summer-school scholarship program, it is important that we 
consider ways in which the program can be improved to continue 
serving all deserving children while making strides toward 
closing the achievement gap.
    I believe strongly in the principles of No Child Left 
Behind and the programs which fall under No Child Left Behind. 
The importance of closing the achievement gap cannot be 
overstated, and I look forward to hearing from today's 
witnesses and their suggestions for doing so.
    Thank you, all, again.
    And I yield back the balance of my time, Mr. Chairman.

Prepared Statement of Hon. Michael N. Castle, Ranking Minority Member, 
  Subcommittee on Early Childhood, Elementary and Secondary Education

    Good Morning. We're here today to examine 21st Century Community 
Learning Centers--which as you know--provide a variety of important 
services, including education, sports, community service and other 
enriching activities to many students around the country.
    I would also like to welcome our witnesses and thank all of you for 
being here to testify today. Specifically, I would like to recognize 
Ms. Theresa Kough.
    I am pleased to have this opportunity to discuss the changes made 
to the 21st Century Community Learning Center (CCLC) program under the 
2001 No Child Left Behind Act, the benefits of after school programs. I 
hope we can discuss the ways in which program is working to increase 
student achievement and how the program can be strengthened.
    As you know, when NCLB was signed into law, the administration of 
the 21st Century Community Learning Centers program was transferred 
from the United States Department of Education to individual state 
departments of education.
    Since 2002, states have awarded competitive grants to state 
entities such as school districts, and local and national community-
based organizations to offer an array of activities to complement 
regular academic programs to not only improve academic skills, but also 
to provide social opportunities.
    In my home state of Delaware, Ms. Kough oversees twenty-five 21st 
CCLC programs which operate in 55 sites throughout the state.
    As Ms. Kough will discuss in her testimony, the number of Delaware 
students enrolled in its 21st CCLC programs has grown substantially 
over the last several years. Delaware students in 21st CCLC programs 
have also made a number of academic gains in reading and mathematics.
    In Delaware and throughout the United States, the importance of 
after school programs is apparent. Each afternoon millions of students 
around the nation leave school with no place to go because they lack 
affordable, accessible after school opportunities. In the hours when 
children are most likely to commit or be the victim of a crime, parents 
and caretakers, for a variety of reasons are unable to arrange or 
afford a better alternative.
    21st CCLC programs give school-aged children the option of using 
this time for growth and opportunity instead. In fact, according to the 
Afterschool Alliance, results of evaluations and teacher reports have 
revealed positive trends in behavior and achievement for students who 
regularly attend 21st Century Community Learning Centers. However, 
federal funding for 21st CCLC programs was never intended to merely 
keep students off the streets. Instead, the program is intended to 
provide meaningful educational opportunities.
    Although there are many positive outcomes associated with CCLCs, 
U.S. Department of Education reports which evaluated CCLC after school 
programs, from 2001 and 2004, did not find significant improvements in 
academic achievement. Additionally, a third report from the U.S. 
Department of Education and the Institute of Education Sciences (IES) 
found that generally, the program had no impact on reading test scores 
or grades.
    I find these results to be problematical and hope to hear from the 
witnesses their suggestions for raising academic standards within this 
important program.
    Additionally, before considering the Administration's proposal to 
transform the program into an after school and summer school 
scholarship program, it is important that we consider ways in which the 
program can be improved to continue serving all deserving children 
while making strides towards closing the achievement gap.
    I believe strongly in the principles of No Child Left Behind and 
the programs which fall under NCLB. The importance of closing the 
achievement gap cannot be overstated and I look forward to hearing from 
today's witnesses their suggestions for doing so. Thank you all again--
I yield back the balance of my time.
                                 ______
                                 
    Chairman Kildee. Thank you very much, Governor.
    Without objection, all members will have 7 calendar days to 
submit additional materials or questions for the hearing 
record.
    I would like now to introduce the very distinguished panel 
of witnesses here with us this morning. I am going to share the 
responsibility on that.
    I first will introduce LaDonna Gamble, who is the interim 
project director of the Flint Community Schools Bridges to the 
Future after-school program. In partnership with the Genesee 
Intermediate School District and the United Way of Genesee 
County, the program serves thousands of students at 109 
schools, 37 in Flint, Michigan.
    Ms. Gamble attended the Flint Community Schools and holds 
degrees from the University of Michigan, where I have my 
Master's degree, and Central Michigan University.
    I now yield to Admiral Sestak to introduce Chief Carroll.
    Admiral?
    Mr. Sestak. Thank you, Mr. Chairman, Ranking Member Castle.
    I am very pleased to introduce chief of police of West 
Goshen Township, Chester County, Pennsylvania, Chief Michael 
Carroll. He has had 41 years in Pennsylvania law enforcement 
and has quite a reputation, both on the national and 
international levels. In fact, he is presently serving as the 
vice president of the International Chiefs of Police 
Association, having served as president of three organizations 
before that: the Chester County Police Chiefs Association, the 
Police Chiefs Association of Southeastern Pennsylvania and the 
Pennsylvania Chiefs of Police Association. But what I am most 
proud of is the last 19 years he has served as chief of police 
of West Goshen.
    In particular, however, he is also an instructor at 
Delaware County's police academy, and he also does guest 
lecturing at several other institutions, including the United 
States Naval Academy, and this is particularly hard since he is 
such an avid Notre Dame football fan. And last year, as 
everybody here watched the game, I am sure, Navy broke one of 
the longest losing streaks in the nation, and I hope you 
weren't there that day at the academy lecturing.
    Chief Carroll is an active member of a program that I 
strongly support, Fight Crime: Invest in Kids. I truly believe 
in this program because I spent my entire 36 or so years in the 
Navy serving with the youth of America. The average age on an 
aircraft carrier--5,000 sailors--is 19\1/2\. They are the youth 
of America. And we always knew, get them while they are young. 
And if you get it into the right cognitive reasoning, you will 
show them the right way, they will be mighty fine.
    This organization, in particular, is composed of police 
chiefs, prosecutors, sheriffs and violence survivors that 
examine what makes our youth likely to commit crime and focuses 
on prevention strategies, like high-quality early-education 
programs and after-school programs. This is what we all would 
like to do: to get troubled kids back on the path toward 
personal achievement, to where we all benefit.
    He has recently been inducted into the International Police 
Chiefs Hall of Fame, and so I am really proud, today, Chief, to 
sit here and introduce you, and thank you for coming.
    Chairman Kildee. Thank you very much, Admiral.
    Chief, there are certain bonds that tie people together. 
Interestingly enough, I see you served in the Honor Guard for 
President Kennedy's funeral. I was in room 310 at Flint Central 
High School teaching Latin when I got word of President 
Kennedy's assassination, and it was that week that I determined 
that I was going to run for public office, feeling that perhaps 
I could touch even more people in that arena. So those dates 
stand in both our memories in a very profound way.
    Priscilla Little is the associate director of the Harvard 
Family Research Project. She recently completed a summary of 10 
years worth of research on after-school programs, which she 
will discuss with us today.
    Ms. Little serves on the advisory board of the Southwest 
Educational Development Laboratory's National Partnership for 
Quality Afterschool Learning, as well as other state after-
school boards, and speaks nationally on research and evaluation 
of after-school programs. She holds degrees from Smith College 
and Tufts University.
    I now yield to the Ranking Member Governor Castle to 
introduce Ms. Kough.
    Mr. Castle. Thank you, Mr. Chairman.
    I will try to get through this introduction without 
mentioning what the University of Delaware did to Navy, Admiral 
Sestak, in this last football season just before that Notre 
Dame game.
    I would like to welcome Theresa Kough to today's hearing. I 
have already talked about her a little bit. She is an education 
associate in the Delaware Department of Education. She is 
currently responsible for administering three major after-
school programs in Delaware, including 21st Century Community 
Learning Centers, state Extra Time funding and Supplemental 
Educational Services.
    Before going with the Delaware Department of Education, she 
was with Newcastle County Vocational School District, and her 
work in score reform technology and the creation of a strong 
library program brought her to the Delaware Department of 
Education as the education associate responsible for school 
library programming.
    In 1999, Ms. Kough became the department's director of the 
Technology, Management and Design workgroup, where she managed 
the implementation of the statewide pupil accounting system and 
the development of the department's data warehouse.
    In her 30 years in education, Ms. Kough has always worked 
with after-school programming because of her strong belief in 
programming, which offers students and schools the opportunity 
to pursue new and different approaches to learning.
    Ms. Kough holds a Master's degree in library and 
information systems from Drexel University, a Bachelor's in 
Science degree from Shippensburg State University in elementary 
education with a concentration reading and library science. She 
has also pursued graduate work at the University of Pittsburgh 
and the University of Pennsylvania.
    Thank you, Ms. Kough, for being here today, and I look 
forward to hearing your testimony on 21st Century Community 
Learning Centers.
    I yield back.
    Chairman Kildee. Thank you very much, Governor.
    Again, welcome to all our witnesses.
    For those of you who have not testified before this 
subcommittee before, I will explain our lighting system and the 
5-minute rule.
    Everyone, including members, is limited to 5 minutes of 
presentation or questioning. The green light will be 
illuminated when you begin to speak, and when you see the 
yellow light, it means that you have one minute remaining. When 
you see the red light, it means that your time has expired and 
you need to conclude your testimony. There is no ejection seat, 
however, so you can finish your paragraph, at least your 
thought.
    Please be certain, as you testify, to turn on and speak 
into the microphone in front of you and turn it off when you 
are finished.
    We will now hear from our first witness, Ms. Gamble.
    Ms. Gamble?

 STATEMENT OF LADONNA GAMBLE, INTERIM PROJECT DIRECTOR, FLINT 
            COMMUNITY SCHOOLS, BRIDGES TO THE FUTURE

    Ms. Gamble. Good morning. My name is LaDonna Gamble, and I 
am interim project director for Bridges to the Future before-
and after-school program 21st Century Community Learning 
Centers in Flint, Michigan.
    Thank you for the opportunity to speak here today. This is 
a first for me, but it is easier because my congressman, 
Representative Kildee, is here with us. Thank you for 
supporting the after-school program.
    I bring the perspective of someone who has seen after-
school work miracles from several vantage points. I experienced 
it as a child growing up in Flint, which was the birthplace of 
community education.
    I have worked as a front-line staffer and administrator at 
an after-school site, and now I administer Flint's 21st Century 
Community Learning Centers program. I see the difference after-
school makes for children and families.
    So I am here today to respond from the field to the 
president's proposal to revamp the 21st Century Community 
Learning Centers initiative into a voucher program, as well as 
his proposed budget cut for after-school. I think both are very 
bad ideas and that it would have a disastrous effect on after-
school programs in Flint, across Michigan and around the 
nation.
    More than that, they are bad ideas that distract us from 
what we really need to do, which is to increase funding to get 
it closer to the level authorized under the No Child Left 
Behind Act, $2.5 billion.
    Let me tell you a little bit about our program in Flint. 
Bridges to the Future serves all of Genesee County, serving 
more than 17,000 children from kindergarten through ninth 
grade.
    Countywide Bridges has 109 sites. I oversee Bridges' 
program in Flint, which includes 32 elementary schools and 
seven middle schools. On any given day, we have 4,000 children 
attend in Flint.
    We have two 21st Century Community Learning Centers grants 
currently in Flint, one that supports five of our middle 
schools and a second that funds five of our elementary schools.
    There are two basic components to our daily program. First, 
the students receive academic support, or what we call mind 
time. It includes lessons that reinforce what they learn during 
the school day, individual homework help and activities like 
chess that build math skills. Second, students enjoy enrichment 
activities, including visual arts, music, writing, choir and 
more.
    Our kids also get a healthy dose of science and technology. 
We offer a terrific Legolab and robotics program in the middle 
schools, courtesy of our 21st Century grant. The kids just love 
it. This weekend our middle school sites will participate in a 
science Olympiad competition at Mott Community College, 
competing with children across the region. They are building 
rockets and having so much fun preparing that they might not 
even notice all the engineering and science learning they are 
doing.
    Of course, we also make sure the kids get physical activity 
through sports, active play and more.
    Our summer programs are funded by 21st Century monies, and 
for the past 3 years, we have focused on fitness and nutrition. 
In addition to providing our kids with a nutritious snack, many 
of them rely on us for a healthy dinner.
    Our two major funding sources are the C. S. Mott Foundation 
grant to the United Way of Genesee County and a 21st Century 
Community Learning Centers grant. We work to raise other funds 
as well. But in Flint we don't have that many options. It is 
not 1965, and the automotive industry isn't pouring money into 
our economy anymore. We need our grants.
    A recent third-party evaluation of the Bridges to the 
Future program found that more than 90 percent of parents say 
their children do better in school and learn new things as a 
result of the program. They also felt that their children were 
safer in Bridges.
    If Congress adopts the president's budget cut, Michigan 
could lose about $8 million, down from its current funding of 
$37 million. On the ground that would mean about 8,000 children 
would lose after-school.
    In Michigan already there are many more grant applications 
than the 21st Century funds can support. Between 2004 and 2006 
the state could only fund 21 percent of the proposals it 
received. That is a lot of unmet demand for after-school, and 
cutting the budget would make matters worse.
    In Flint we already have waiting lists. A cut would 
exacerbate the problem, and a cut would harm our summer program 
or perhaps even cause it to fold.
    We are very grateful to the government and, particularly, 
to Congress for what you have done to make after-school 
programs available. Your after-school funding has created 
opportunities for millions of children across the nation. I 
thank you on behalf of those kids and families.
    But also on their behalf, I urge you to reject the 
president's unwise proposal, and more than that, I urge you to 
remember that after-school pays incredible dividends today and 
in the future.
    So it is important that the president's proposal be 
defeated, but it is also important that defeating it does not 
distract from the important work of expanding after-school 
activities for children and families nationwide by increasing 
21st Century Community Learning Centers funding for next year.
    Thank you very much.
    [The statement of Ms. Gamble follows:]

Prepared Statement of LaDonna Gamble, Interim Project Director, Bridges 
 to the Future Before and Afterschool Program's 21st Century Community 
                            Learning Centers

    Good morning. My name's LaDonna Gamble, and I'm the Interim Project 
Director of the Bridges to the Future Before and Afterschool Program's 
21st Century Community Learning Centers in Flint, Michigan.
    Thank you very much for the opportunity to be here today. This is a 
first for me, but it's a lot easier because my Congressman, 
Representative Kildee is here today. It's good to see you, sir. Thank 
you for your support for afterschool programs. It means so very much.
    I bring today the perspective of someone who has seen afterschool 
work its miracles from several vantage points. I've experienced it as a 
child growing up in Flint, the birthplace of community education. I've 
worked as a front line staffer and administrator at an afterschool 
site, working with children. And now I administer Flint's 21st Century 
Community Learning Centers programs. I see what a difference 
afterschool makes in the lives of our children and their families. I 
know how crucial it is.
    So I'm here today to respond, as a voice from the field, to the 
President's proposal to revamp the 21st Century Community Learning 
Centers initiative into a voucher program, as well as to his proposed 
budget cut for afterschool. I think both are very bad ideas that would 
have a disastrous effect on afterschool programs in Flint, across 
Michigan, and around the nation.
    More than that, I think they're bad ideas that distract us from 
doing what we need to do for the 21st Century Community Learning 
Centers (21st CCLC) initiative, which is to increase funding to get it 
closer to the level authorized under the No Child Left Behind Act--$2.5 
billion.
    Let me start by telling you about our program in Flint. The Bridges 
to the Future program spans all of Genesee County, serving more than 
17,000 children, from kindergarten through 9th grade. County-wide, 
Bridges has 109 sites. I oversee the Bridges program in Flint, which 
includes programs in 32 elementary schools and five middle schools. On 
any given day, about 4,000 children attend Bridges programs in Flint. 
Total enrollment is larger, but for various reasons (illness, family 
matters, student choice, etc), perfect attendance is rare.
    We have two separate 21st Century Community Learning Centers grants 
in Flint, one that supports five of our seven middle school programs, 
and a second grant that funds five of our elementary programs. We're 
also very fortunate to have the support of the Charles Stewart Mott 
Foundation, based in Flint, which, as you know, is a major supporter of 
afterschool. They give a very significant grant to our community 
partner, the United Way of Genesee County, which in turn supports the 
Bridges program in Flint and county-wide.
    Let me tell you what that funding supports. There are two basic 
components to our daily program. First, students receive academic 
support, or what we call ``mind time.'' And second is broad program of 
enrichment activities.
    ``Mind time'' includes lessons reinforcing what students are 
learning during the regular school day, as well as group and individual 
help with homework. Mind Time can also include activities such as 
chess, which some studies have shown builds students' math skills. We 
coordinate with our school day staff to make sure we're on track with 
their curriculum, and to try to shore up any weaknesses that the 
teachers are seeing.
    Our enrichment activities include a wide range of things, and many 
of them involve our various community partners. Many of our activities 
involve the arts, and we have an invaluable partner in the Flint 
Cultural Center, which provides lessons and programs for our children 
that introduce them to the visual arts, music, writing and more.
    Our kids also get a healthy dose of science and technology. We 
offer a terrific Lego Lab and robotics program in middle schools, 
courtesy of our 21st CCLC grant. The kids just love it. It's pretty 
popular with the adults, too, to tell the truth!
    We conduct a number of activities that were once part of the 
regular school day, but that between tight budgets and the focus on 
state assessment tests, were discontinued. So we have a choir program, 
and we train students for the spelling bee. This coming weekend, our 
middle school sites will participate in a Science Olympiad Competition, 
competing with children from across the county and the region. They are 
building rockets. There will be a trebuchet competition--those are the 
very large catapult-type devices that were the Peacekeeper Missiles of 
the Middle Ages. It will be a remarkable event, so much fun for the 
kids that they aren't even noticing all the engineering and science 
learning they are doing to prepare!
    Of course, we also make sure the kids run around, and get physical 
activity through sports, active play and more. Our summer programs are 
funded by 21st CCLC, and for the past three years we have had a much 
needed focus on fitness and nutrition. In addition to providing our 
kids with a nutritious snack in the afternoon, many of them also rely 
on us for a healthy dinner after programming ends.
    That's a very quick sketch of what we do. Our two major funding 
sources are the C.S. Mott Foundation grant to the United Way of Genesee 
County, and our 21st Century Community Learning Centers grants. We work 
to raise other funds and in-kind donations as well. We do that program-
wide and also site-by-site, as individual afterschool sites engage with 
local businesses and community organizations. But I want to make clear 
that in Flint, we don't have all that many options. It's not 1965, and 
the automotive industry isn't pouring money into our local economy 
anymore. We need our grants.
    So on the budget cut, I feel as if we've had this conversation 
before. I think you all know that in 2003, the President proposed 
cutting the 21st CCLC initiative back by 40 percent. The public 
erupted. Parents, educators, business leaders, pretty much everybody 
with a stake in our children's safety and education rose as one to 
object. Members of Congress heard from their constituents and decided 
to reject the President's unwise proposal.
    Now it's back. The numbers are different, and it's got the 
additional bad idea of a voucher program attached to it, but it's still 
a very large, and entirely unjustified, budget cut.
    The President's proposal is at odds with any number of independent, 
scientific evaluations of afterschool programs. One very recent study 
that you might have heard of is the ``Study of Promising Afterschool 
Programs,'' by scholars Deborah Lowe Vandell and Kim Pierce of the 
University of California at Irvine, and Elizabeth Reisner of Policy 
Studies Associates. It showed that regular participation in high 
quality programs led to significant gains in test scores and work 
habits.
    And believe me, that's just one of many, many studies that 
demonstrate with hard numbers what I would guess is also intuitive for 
all of us. If we spend time with kids, helping them with their studies, 
giving them incentive to come to school, engaging them in relationships 
with caring adults, making sure they're safe in the afternoons, 
exposing them to new, horizon-expanding activities, getting them off 
the couch and onto the playing field * * * if we do all those things, 
good things happen for our kids. One of those good things is that they 
do better in school. And a number of studies show other positive 
impacts, including improved behavior, better fitness and less obesity, 
and less stress on working parents--which makes them better employees, 
and probably better parents!
    So it's not by accident that you hear over and over again from 
parents and educators that afterschool works. It keeps kids safe, it 
inspires students to learn, and it helps working families. We say it 
because it's what we see happening every day.
    A recent third-party evaluation of the Bridges to the Future 
program found that more than 90 percent of parents with kids in the 
program say their children do better in school and learn new things as 
a result of the program. They also overwhelmingly felt that their 
children were safer in Bridges. So while we're always focused on 
improving what we do, we know what we're doing is working.
    Now, in Michigan, estimates are that the state would lose about $8 
million in grant monies from this plan, down from its current funding 
of $37 million. On the ground, that'd mean that more than 8,000 
children would lose afterschool across the state. Nationwide, the 
estimate is that more than a quarter million children would lose 
afterschool. In Flint, we already have waiting lists of children 
wanting to be in our afterschool programs. A cut would only exacerbate 
the problem.
    I should also point out that in Michigan, there are many more grant 
applications submitted than can be funded by the 21st CCLC initiative. 
Between 2004 and 2006, the state could fund only 21 percent of the 
proposals it received. That's a lot of unmet demand for afterschool, 
and cutting the budget would make matters worse. I can't imagine that 
Michigan is unique in that respect. For example, from data gathered by 
the Afterschool Alliance, we know that the parents of at least 15 
million children say they'd enroll their kids in an afterschool program 
if one were available to them.
    Now, what would this cut mean for the children of Flint, Michigan? 
It would depend, of course, on how Michigan decides to implement it, 
but it could be a disaster. The proposed cut, if enacted by Congress, 
would almost certainly mean that Michigan would make no new grants next 
year. So while a fifth or more of the state's grants would expire, no 
new grants or renewals would go out to replace them. Quite simply, 
that'd mean fewer afterschool programs, fewer children safe, and fewer 
families served.
    The state might also elect to implement an across-the-board 
cutback, or perhaps a cutback for some of the grantees--those in their 
final year of multi-year grants, for example. That would hit us hard, 
because our elementary school 21st CCLC grant enters its final year 
this June. So conceivably, we could start the 2008-09 school year, and 
then lose funding mid-stream. That'd be a disaster.
    Our summer program for kids would also suffer, perhaps have to 
fold. It's entirely dependent on our 21st CCLC grant.
    None of those are good outcomes, and all of them cry out for 
rejecting this proposal.
    I want you to know that I'm very proud of the work we do at Bridges 
to the Future. I'm proud that our community has recognized the 
importance of afterschool in the lives of children and families. I'm 
proud of the work we've done to create a vibrant afterschool program. 
I'm proud of all the afterschool professionals who give their hearts, 
their brains, their energy, and their perseverance to afterschool every 
day. And I'm especially proud of our kids for taking part in programs 
that mix fun with learning, and meeting the adults more than half way. 
It's a remarkable thing to see it all come together.
    And we're very grateful to the federal government and, particularly 
to Members of Congress, for what you've done to make it possible. 
Without the 21st CCLC initiative, it's hard to imagine that afterschool 
would have grown as much as it has over the last 10 years. Your support 
of afterschool funding has created opportunities for millions of 
children across the nation. So I thank you on behalf of those kids and 
their families.
    But also on their behalf, I urge you to reject this unwise 
proposal. And more than that, I urge you to make good on the letter and 
intent of the No Child Left Behind Act where it concerns afterschool. 
It mapped out a series of modest but steady increases in afterschool 
funding through Fiscal Year 2007, none of which came to pass. For 2008, 
you found funds for a modest increase, and believe me, parents and 
families noticed and appreciated it. That was a terrific down-payment 
on the expansion that is so critical to increasing and improving 
afterschool opportunities from coast to coast.
    So I ask you to stay on that path, by increasing funding this year 
as well. I know you have competing priorities. But afterschool pays 
such incredible dividends today and in the future, that I hope you'll 
find space in the budget to increase funding.
    And I ask you to remember that converting 21st Century Community 
Learning Centers to a voucher program would completely undermine what 
we're doing. It'd make funding precarious, because we wouldn't know 
from semester to semester, maybe even month to month, what our funding 
base would be. We're already struggling with uncertainty about funding. 
A voucher plan would only make it worse.
    Also, I'm not sure what it would accomplish. I presume the 
Administration wants to involve more community organizations in 
afterschool. But those organizations, including faith-based 
organizations, are already partners in afterschool programs across the 
nation.
    Another problem it would create has to do with sustained 
participation by children. Studies tell us that for afterschool to have 
its best impact, sustained and regular attendance is key. I worry that 
a voucher approach would work against that because it would encourage 
children and families to drop in and out of programs, taking funding 
with them.
    In short, I think the voucher proposal is trying to solve a problem 
that doesn't exist. And in fact, I think it would create problems by 
destabilizing funding for existing programs, and undermining existing 
community partnerships.
    One other point I'd like to make very quickly on the voucher aspect 
of the proposal is that it would make it exponentially more difficult 
to get new afterschool programs off the ground. One of the very best 
ways to launch a program is with a 21st CCLC grant. It gives programs a 
multi-year funding base from the first day of the grant. There are 
other funding sources, of course, but not everywhere and they're hard 
to come by. They're especially hard to come by in Flint. And they're 
incredibly scarce in rural communities. And of course, those difficult 
economic realities also make afterschool all the more important to the 
community. So I think that taking away the stability of the 21st CCLC 
grant would drain much of the energy out of the afterschool movement. 
It's already incredibly difficult to get an afterschool program off the 
ground. The President's proposal would make it that much harder.
    Along those same lines, we use our 21st CCLC grant to leverage 
other funding sources. Conversion to a voucher program would take that 
away from us, and hurt us in our pursuit of additional support. It 
would also be nearly impossible to devise a sustainability plan for 
afterschool programs, without knowing what kind of revenue to expect 
from voucher students.
    So both in terms of the cut, and in terms of the conversion to a 
voucher program, it's important that the President's proposal be 
defeated. But it's also important that defeating it not distract us 
from the important work of expanding afterschool opportunities for 
children and families across the nation.
    Thank you very much.
                                 ______
                                 
    Chairman Kildee. Thank you very much, Ms. Gamble.
    Chief?

 STATEMENT OF MICHAEL J. CARROLL, CHIEF, WEST GOSHEN TOWNSHIP 
                       POLICE DEPARTMENT

    Mr. Carroll. Chairman Kildee, members of the subcommittee, 
thank you for the opportunity to testify before you today.
    My name is Michael Carroll. For 19 years I have been the 
chief of police of West Goshen Township in Chester County, 
Pennsylvania. I am currently the second vice president of the 
International Associations of Chiefs of Police.
    I am also a member of Fight Crime: Invest in Kids, an 
organization of over 3,500 police chiefs, prosecutors, sheriffs 
and violence survivors dedicated to examining the research on 
what works to keep kids from becoming criminals.
    When violence occurs, punishment is important and 
necessary, but we must also invest in prudent approaches that 
keep at-risk kids from committing crimes in the first place. 
The research and my experience in law enforcement shows that 
quality after-school programs do just that.
    When the school bell rings, millions of children and teens 
head to the street with neither constructive activities nor 
supervision by caring, responsible adults, and violent juvenile 
crime soars. Research from across the country consistently 
shows that on school days the hours from 3:00 P.M. to 6:00 P.M. 
are also the peak hours when children are most likely to become 
victims of crime, be in automobile accidents, smoke, drink 
alcohol or use drugs.
    Fortunately, quality after-school programs can cut crime 
and transform the primetime for juvenile crime into hours of 
academic achievement, constructive recreation and community 
service.
    For example, in a study conducted in several U.S. cities, 
five housing projects with Boys and Girls Clubs were compared 
to five without Boys and Girls Clubs. At the beginning, drug 
activity and vandalism were the same, but by the time the study 
ended, the project without the programs had 50 percent more 
vandalism and scored 37 percent worse on drug activity.
    An evaluation of an antigang Boys' and Girls' Club approach 
found that the high-risk children and teens in these clubs 
showed decreases in several gang and delinquent behaviors. 
These youths also exhibited positive changes in their 
engagement or achievement in school.
    A study of the San Francisco Bayview Safe Haven after-
school program found that, among kids with prior histories of 
arrest, those who did not participate in the programs were 
twice as likely to be arrested during the 6-month initial 
intervention period as program participants. Among kids with no 
prior histories of arrest, those who did not participate were 
three times as likely as participants to be arrested during the 
same intervention period.
    When we invest in what works, it has a big payoff. 
Professor Mark A. Cohen of Vanderbilt University estimates that 
for each high-risk youth prevented from adopting a life of 
crime, the country saves up to $7 million.
    Despite the clear evidence that quality after-school 
programs can prevent crime and improve other youth outcomes, 
there remains a dramatic shortage of after-school programs. 
Fourteen million children are left unsupervised after school 
each year. Unfortunately, the fiscal year 2008 funding for this 
program--just over $1 billion--is far below the $2.5 billion 
authorized under the No Child Left Behind Act.
    Given the inadequacy of current federal funding for after-
school programs, it was surprising and disturbing that the 
administration recently proposed a deep cut of $300 million for 
fiscal year 2009, a 27 percent cut. That is one out of every 
four kids now served who would be out on the streets after 
school. The proposed cut in funding for the 21st Century 
Community Learning Centers program would result in 300,000 
fewer kids served by the program.
    Also troubling was a proposal that the program be 
reconstituted from funding for the establishment and support of 
quality after-school programs in high-need communities to 
funding for payments for individual kids to pay for after-
school activities.
    This proposal was troubling in two ways. Number one, it may 
lead to kids being relegated to lower-quality programs; and, 
two, without seed money to establish programs, many high-need 
communities won't even have an after-school program so kids 
will lose out on after-school opportunities altogether.
    The proposed cut and restructuring are policy directions 
that would result in fewer after-school opportunities for at-
risk youth and would make our communities and all of our 
citizens more vulnerable to crime with all of crime's cost, 
both financial and human.
    Government's most fundamental responsibility is to protect 
the public safety. I commend this subcommittee for drawing 
attention to the need to reject the administration's proposal 
to cut the 21st Century Community Learning Centers program by 
$300 million, as well as its ill-advised proposal to voucherize 
the program.
    I urge Congress to, instead, substantially increase funding 
to support and expand quality after-school programs that offer 
kids constructive activities during the peak hours of juvenile 
crime, with new designated funding for middle and high school 
youths who now experience the greatest unmet need and are at 
greatest risk of perpetrating or being victims of crime.
    Thank you, and I would be happy to answer any questions you 
may have.
    [The statement of Mr. Carroll follows:]

Prepared Statement of Michael J. Carroll, Chief of Police, West Goshen 
                       Township Police Department

    Chairman Kildee and Members of the Subcommittee: Thank you for the 
opportunity to testify before you today. My name is Michael Carroll and 
I have served in various law enforcement positions in Chester County, 
Pennsylvania for forty-one years. For nineteen years, I have been Chief 
of West Goshen Township. I have previously served as President of the 
Chester County Police Chiefs Association, the Police Chiefs Association 
of Southeastern Pennsylvania, and the Pennsylvania Chiefs of Police 
Association and I am currently the 2nd Vice President of the 
International Association of Chiefs of Police. I am also a member of 
FIGHT CRIME: INVEST IN KIDS--an organization of over 3,500 police 
chiefs, prosecutors, sheriffs and violence survivors dedicated to 
examining the research on what makes kids more likely to commit 
criminal offenses, and the most effective ways to ensure that, instead, 
they are on the path toward lives of personal achievement and positive 
community contributions.
    When violence occurs, punishment is important and necessary. But we 
must also invest in proven approaches that keep at-risk kids from 
committing crimes in the first place. The research, and my experience 
in law enforcement, show that quality afterschool programs do just 
that.
    When the school bell rings, millions of children and teens head to 
the street with neither constructive activities nor supervision by 
caring, responsible adults--and violent juvenile crime soars. Research 
from across the country consistently shows that on school days, the 
hours from 3 to 6 pm are also the peak hours when children are most 
likely to become victims of crime, be in an automobile accident, smoke, 
drink alcohol, or use drugs.
    Fortunately, quality afterschool programs can cut crime and 
transform the ``prime time for juvenile crime'' into hours of academic 
enrichment, constructive recreation and community service. For example, 
in a study conducted in several U.S. cities, five housing projects 
without Boys & Girls Clubs were compared to five receiving new clubs. 
At the beginning, drug activity and vandalism were the same. But by the 
time the study ended, the projects without the programs had 50 percent 
more vandalism and scored 37 percent worse on drug activity. More than 
fifty years of research findings show Boys & Girls Clubs can 
successfully reduce crime. A recent study showed that specially 
designed anti-gang Boys & Girls Club programs can effectively recruit 
and retain children who are at high risk of becoming involved in gangs, 
and even youths who are already in gangs. The evaluation of the anti-
gang Boys & Girls Club programs found that the high-risk children and 
teens in these clubs showed decreases in several gang and delinquent 
behaviors. These youth also exhibited positive changes in their 
engagement or achievement in school.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A study of San Francisco's Bayview Safe Haven afterschool program 
found that, among kids with prior histories of arrest, those who did 
not participate in the program were twice as likely to be arrested 
during the six-month initial intervention period as program 
participants. Among kids with no prior histories of arrest, those who 
did not participate were three times more likely than participants to 
be arrested during the same intervention period.
    Unfortunately, not all out-of-school-time programs will produce 
solid results. Quality matters. Turning children away from involvement 
in crime takes well-designed programs with adequate numbers of caring, 
well-trained staff. In addition, to have maximum crime-prevention 
results, programs must target kids in the most at-risk areas as the 
21st Century Community Learning Centers (21st CCLC) program does. When 
we do invest in what works it has a big pay-off. Professor Mark A. 
Cohen, of Vanderbilt University, estimates that for each high-risk 
youth prevented from adopting a life of crime, the country saves up to 
$7 million.
    Despite the clear evidence that quality afterschool programs can 
prevent crime and improve other youth outcomes, there remains a 
dramatic shortage of after-school programs. Fourteen million children 
are left unsupervised after school each year.
    The 21st Century Community Learning Centers program is the federal 
government's principal afterschool program investment. Unfortunately, 
the program was reduced from $1 billion to $981 million in FY06, where 
it remained for FY07. For FY08, Congress provided an additional $100 
million in funding, for a total of just over $1 billion--still far 
below the $2.5 billion authorized under the No Child Left Behind Act.
    Given the inadequacy of current federal funding for afterschool 
programs, it was surprising and disturbing that the Administration 
recently proposed a deep cut of $300 million for FY09--a 27% cut. 
That's one out of every four kids now served who would be out on the 
streets after school. The proposed cut in funding for the 21st Century 
Community Learning Centers program would result in 300,000 fewer kids 
served by the program. Also troubling was a proposal that the program 
be reconstituted--from funding for the establishment and support of 
quality after school programs in high-need communities to funding for 
payments for individual kids to pay for after-school activities. This 
proposal is troubling in two ways: (1) it may lead to kids being 
relegated to lower quality programs, and (2) without seed money to 
establish programs, many high-need communities won't even have an 
afterschool program, so kids will lose out on afterschool opportunities 
altogether.
    The proposed cut and restructuring are policy directions that would 
result in fewer afterschool opportunities for at-risk youth, and would 
make our communities and all our citizens more vulnerable to crime--
with all of crime's costs, both financial and human.
    Instead, the No Child Left Behind Act reauthorization, now awaiting 
action in this Committee, provides an opportunity to expand and 
strengthen the 21st Century Community Learning Centers program. 
Although these programs are available to all grade levels, elementary 
school students are the group most frequently targeted for services by 
the centers. About half of the centers serve elementary school students 
exclusively, and at least two thirds of all centers serve some 
elementary students. Only 20 percent of the centers exclusively target 
middle school students and only 5 percent of centers exclusively target 
high school students. We recommend that new, increased resources be 
designated for after-school for at-risk middle and high school students 
who now experience the greatest unmet need--and are at greatest risk of 
perpetrating or being victims of crime.
    Government's most fundamental responsibility is to protect the 
public safety. I commend the House Education and Labor Subcommittee on 
Early Childhood, Elementary and Secondary Education for drawing 
attention to the need to reject the Administration's proposal to cut 
the 21st Century Community Learning Centers program by $300 million, as 
well as its ill-advised proposal to voucherize the program. I urge 
Congress to, instead, substantially increase funding to support and 
expand afterschool programs that offer kids constructive activities 
during the peak hours of juvenile crime. Thank you.
                                 ______
                                 
    Chairman Kildee. Thank you very much, Chief Carroll.
    Without objection, I will make a little comment on your 
testimony, which I very much appreciated.
    You mention the $2.5 billion authorization level, and most 
of the members up here have heard me say this for many years, 
but you raise a very good point.
    An authorization really tells what we think should be 
spent. An authorization is like a get-well card. If I have a 
friend who is ill, I will send my friend a get-well card that 
shows how I value my friend. What my friend really needs is the 
Blue Cross card to pay the bills. And the president's Blue 
Cross card has been quite short of the get-well card. And 
Congress has always tried to add to that, but I think your 
point is very well taken--$2.5 billion does show how the 
Congress values this program, but we need to send that Blue 
Cross card, so I appreciate your point, Chief, very much.
    Ms. Little?

 STATEMENT OF PRISCILLA LITTLE, HARVARD FAMILY RESEARCH PROJECT

    Ms. Little. Thank you for the opportunity to provide 
testimony at this important hearing on after-school programs at 
this critical juncture in their future.
    My name is Priscilla Little, and I am the associate 
director of the Harvard Family Research Project at the Harvard 
Graduate School of Education.
    I have spent the past 10 years of my work devoted to 
building the knowledge base for after-school, compiling 
literally hundreds of research and evaluation studies into a 
national database and helping people understand what they are 
telling us both about effective programming and how best to use 
research for policy and practice.
    I want to start with a very simple message: After-school 
programs are a critical component of children's education and 
development, and, in part thanks to the 21st Century grants 
program, we have a good, solid evidence base on which to make 
this claim.
    The 21st Century grants program spawn new money, new 
programs and new research and evaluation studies.
    In addition to the studies conducted of 21st Century 
programs directly, many other evaluations that I have tracked, 
read and written about include programs which receive 21st 
Century funding as one of many blended funding sources they 
have used to leverage support. It is in this larger evidence 
base on which I base my testimony today.
    The studies I have chosen to illustrate my points all 
employed rigorous research designs that involve either a 
comparison or a control group, thus increasing the 
generalizability of the findings.
    Even though the 21st Century program began in the 20th 
century, it was aptly named as a program that could support the 
development of skills necessary for young people to support 
America's effort to stay competitive in a 21st century global 
economy.
    Since its inception 10 years ago, we have learned a lot 
about the enormous potential after-school programs have to 
support a range of positive learning and developmental outcomes 
that can help young people succeed in schools, in their 
communities, in their jobs and in their future.
    Participation in well-implemented after-school programs can 
support academic achievement and school success. There is lots 
of research that says that. For example, a statewide evaluation 
of Louisiana's 21st Century programs indicates that 
participants showed significant improvements over 
nonparticipants on the Iowa Tests of Basic Skills, particularly 
those who attended regularly.
    Similarly, newly released findings from the promising 
practices study included over 300 students participating in its 
programs nationwide, including some funded by 21st Century, and 
they found significant increases on standardized math scores.
    But to succeed in a global competitive economy, young 
people need to be equipped with a set of skills that go well 
beyond the three R's. They need to become effective 
communicators, know how to develop and sustain relationships, 
solve problems and have a strong sense of self.
    Turning to the research, there is solid evidence that 21st 
Century and other after-school programs can do this. In a 
recent meta-analysis of 73 after-school programs, researchers 
found that participation in an after-school program could 
significantly improve students' self-esteem.
    In addition to cutting crime, participation in after-school 
programs gets children and youth off the streets and under 
supervision and potentially prevents some very risky behaviors, 
such as drug and alcohol use and teen sex.
    After-school programs are viewed as one of many places that 
can tackle the growing problem of obesity among our nation's 
children and youth. Startling new statistics reveal that by 
2010 almost 50 percent of America's children will be obese, 
and, furthermore, almost two-thirds of American children--my 
children included--get little or no physical activity.
    An after-school programs can contribute to healthy 
lifestyles and increase knowledge about nutrition and exercise. 
A study of 600 elementary school children found that obesity 
prevalence was significantly lower among children who 
participated in a citywide after-school initiative in the New 
Haven public schools.
    Now, do all after-school programs deliver on all these 
outcomes? Of course, not. First, different programs target 
different sets of skills, and it isn't appropriate to think one 
program can do it all.
    Second, we have learned a lot from the research about 
specific factors that make a big difference in whether or not a 
program can get these outcomes.
    I am running short on time, so I am going to pick one that 
I think is the most critical to 21st Century, and I refer you 
to my written testimony.
    Learning doesn't stop when the school bell rings. 
Supporting learning throughout the day, throughout the year and 
throughout a child's life requires partnership, and this is an 
area where 21st Century programs are particularly strong. The 
typical 21st Century program has six community partners who 
contribute to the project by providing services and resources 
not directly funded by the program itself. These partners help 
improve quality, help engage children and youth through the 
community, and help 21st Century programs leverage additional 
resources for sustainability.
    In closing, I want to reiterate that we know a lot about 
what works for children and youth during the after-school 
hours, and I want to underscore the importance of 21st Century 
grants program as a core education and developmental support 
for our nation's children. I encourage you to use the research 
I have presented and written about to make informed decisions 
about resource allocations and set reasonable expectations for 
participation in 21st Century programs.
    Thank you.
    [The statement of Ms. Little follows:]

Prepared Statement of Priscilla M. Little, Associate Director, Harvard 
 Family Research Project, on Behalf of Harvard Family Research Project

    Chairman Kildee and Members of the Subcommittee: Thank you for the 
opportunity to provide testimony at this important hearing on after 
school programs. My name is Priscilla Little and I am the associate 
director of the Harvard Family Research Project at the Harvard 
University Graduate School of Education. I have spent the past ten 
years of my work devoted to building the knowledge base for after 
school, compiling literally hundreds of research and evaluation studies 
into a national database and helping people understand what these 
studies are telling us about effective programming and how best to use 
research for policy and practice. I also sit on numerous evaluation 
advisory boards, including the technical working group for the 21st 
CCLC implementation study and the evaluation task force for the 21st 
CCLC Profile and Performance Information Collection System (PPICs), the 
monitoring and evaluation tool used by all 21st CCLC programs.
    I want to start with a very simple message: After school programs 
are a critical component of children's education and development and, 
in part thanks to the 21st CCLC grants program, we have a good solid 
evidence base to support this claim. The 21st CCLC grants program 
spawned new money, new programs, and new research and evaluation 
studies. In addition to the studies conducted of 21st CCLC programs 
directly, many other evaluations that I have tracked, read, and written 
about, like the TASC programs in New York and LAs BEST in Los Angeles 
include programs which receive 21st CCLC funding as one of many blended 
funding sources they have leveraged to support their work. And it is 
this larger evidence base on which I base my testimony to you today. 
The studies that I have chosen all employed rigorous research designs 
that involved either a comparison or control group, thus increasing the 
generalizability of the findings.
    Even though the 21st CCLC program began in the 20th century, it was 
aptly named as a program that could support the development of the 
skills necessary for young people to support America's effort to stay 
competitive in a 21st century global economy. Since its inception 10 
years ago we have learned a lot about the enormous potential after 
school programs have to support a range of positive learning and 
developmental outcomes, outcomes that can help young people succeed in 
school and in their community and prepare them for post secondary 
success, including attending college, getting competitive wage jobs, 
and being engaged community and family members.
    Participation in well implemented after school programs can support 
academic achievement and school success. It can result in: less 
disciplinary action; lower dropout rates; better academic performance 
in school, including better grades and test scores; greater on-time 
promotion; improved homework completion; and improved work habits. For 
example:
    <bullet> A statewide evaluation of Louisiana's 21st CCLC programs 
revealed that participants showed significant improvements over 
nonparticipants on the Iowa Test of Basic Skills, particularly for 
those students who attended the programs regularly.\1\
    <bullet> A two-year longitudinal Study of Promising After-School 
Programs examined the effects of participation in quality after school 
programs among almost 3,000 youth in 35 elementary and middle school 
after school programs located in 14 cities and 8 states. New findings 
from that study indicate that elementary and middle school students who 
participated in high-quality after school programs, alone or in 
combination with other activities, across two years demonstrated 
significant gains in standardized math test scores, when compared to 
their peers who were regularly unsupervised after school.
    Further, regular participation in after school programs was 
associated with improvements in work habits and task persistence.\2\ A 
recent meta-analysis combined the results of 56 quasi-experimental and 
experimental studies of after school programs for at-risk youth and 
found that programs demonstrated positive effects on both reading and 
math achievement.\3\
    Evaluations of the school-based TASC programs in New York, which 
emphasize academic enrichment, homework assistance, the arts, and 
recreation, have demonstrated that participants outperform similar 
nonparticipants on math test scores and high school Regents Examination 
scores, as well as high school credits earned and school attendance 
rates.\4\
    Foundations, Inc. operates extended-day enrichment programs before 
school, after school, and during the summer. Its evaluation of 19 
elementary school after school programs in three states found highly 
statistically significant improvements in both reading and math scores 
between pretest and posttest.\5\
    Many research studies that I have reviewed go on to say that the 
most successful programs are ones that foster engagement in learning as 
a precursor to getting good academic results. For example:
    <bullet> Evaluations of Citizen Schools, which provides hands-on 
apprenticeships, academic skill-building activities, leadership skills 
development, and homework help found that participants outperformed 
comparable nonparticipants on many measures of academic success, such 
as selecting higher quality high schools, school attendance, promotion 
rates, lower suspension rates, and some measures of grades and test 
scores.\6\
    <bullet> In addition to focused academic content, the TASC 
evaluation revealed that including a broad variety of enrichment 
activities, in addition to activities devoted to developing skill 
building and mastery, was one of the primary common features of high-
performing programs.\7\
    <bullet> A review of academic achievement programs conducted by 
Child Trends, as well as first year findings from an evaluation of 550 
out-of-school time programs sponsored by New York City's Department of 
Youth and Community Development (DYCD), conclude that developing a 
highly focused academic component aligned with academic goals may be 
important for producing good outcomes. However, an all-encompassing and 
exclusive focus on academics may be detrimental. In other words, the 
more multifaceted after school programs are likely to reap the biggest 
academic gains.\8\
    <bullet> A meta-analysis of 93 studies of summer school programs 
found that they led to increases in participants' knowledge and skills. 
In particular, programs aimed at remediation of learning deficiencies 
and programs focused on learning acceleration both produced positive 
impacts on youth's knowledge and skills.\9\
    It is important to note that the common thread among all these 
studies is not just that the programs intentionally tried to improve 
academic performance and therefore offered academic support, but that 
they combined it with other enrichment activities to achieve positive 
academic outcomes, and this is what many 21st CCLC programs strive to 
do. Extra time for academics by itself may be necessary but may not be 
sufficient to improve academic outcomes. Balancing academic support 
with a variety of engaging, fun, and structured extracurricular or 
cocurricular activities that promote youth development in a variety of 
real-world contexts appears to support and improve academic 
performance.
    But to succeed in a competitive global economy young people need to 
be equipped with a set of skills that goes beyond the 3 R's * * * they 
need to become effective communicators, know how to develop and sustain 
relationships, solve problems, and have a strong sense of self. Turning 
to the research there is solid evidence that 21st CCLC and other after 
school programs can support a range of behavioral outcomes including: 
social and communication skills; relationships with others; self-
confidence; development of initiative; and feelings and attitudes 
toward self and school. For example:
    <bullet> A random-assignment evaluation of the Go Grrrls program in 
Arizona, which provides girls with structured group sessions built 
around tasks considered critical for the healthy psychosocial 
development of early adolescent girls in contemporary society, found 
that the program improved girls' body image, assertiveness, self-
efficacy, self-liking, and competence.\10\
    <bullet> The Siblings of Children With Developmental Disabilities 
After School Support Program, which combines group discussion, 
structured and unstructured recreation, and homework help, found 
positive impact on participants in outcome areas like lower depression, 
lower anxiety, and increased self-esteem.\11\
    <bullet> Evaluations of mentoring programs also reveal that 
participation in programs primarily targeted at supporting student 
academic performance actually can significantly impact social/emotional 
development. For example, Across Ages pairs older mentors (age 55 and 
older) with middle school youth in and out of school, and teams the 
mentoring component with community service, a life skills curriculum, 
and family activities. An evaluation of Across Ages revealed that youth 
in the mentor group reported significantly higher self-control and 
self-confidence levels than youth who participated in other components 
but not mentoring.\12\
    <bullet> In addition to these individual studies, a recent meta-
analysis of over 70 after school programs that attempted to promote 
personal and social skills found that across studies, after school 
programs could improve youth self-esteem and self-confidence, 
particularly in programs with a strong intentional focus on improving 
social and personal skills.\13\ This is a particularly important 
finding: It speaks to the need for strong program design with an 
intentional focus on the desired outcomes, regardless of what those 
outcomes might be.
    The hours from 3 to 6 p.m. present several potential hazards to a 
young person's development. These are the hours associated with the 
peak time for juvenile crime and juvenile victimization and the hours 
when teens ages 16--17 are most likely to be in or cause a car crash. 
Furthermore, based on a survey of 2,000 high school students that 
looked at the relationship between after school supervision and sexual 
activity, the American Academy of Pediatrics found that 56% of youth 
surveyed reported being home for 4 or more hours unsupervised after 
school. Youth who were unsupervised for 30 or more hours per week were 
more likely to be sexually active than those who were left alone for 5 
hours a week or less. In addition, those left unsupervised for more 
than 5 hours per week had more sexually transmitted diseases, 
particularly among boys.
    Participation in after school programs gets children and youth off 
the streets and under supervision and potentially prevents some risky 
behaviors. Beyond a safe haven, research and evaluation studies have 
also demonstrated the positive impact of participation in after school 
programs on a range of prevention outcomes including: avoidance of drug 
and alcohol use, avoidance of sexual behaviors, and reduction in 
juvenile violence. For example:
    <bullet> The Children's Aid Society Carrera Adolescent Pregnancy 
Prevention Program showed positive impacts on reducing pregnancies, 
teen sex, and boys' marijuana usage.\14\
    <bullet> Girls Inc.'s Friendly PEERsuasion program, which provides 
girls with a structured curriculum of fun activities focused on 
preventing substance use, found that participants showed positive 
benefits on outcomes such as delaying the onset of alcohol use and 
avoiding situations where alcohol was present.\15\
    <bullet> Project Venture, which provides skill-building, community 
service, and leadership opportunities and outdoor experiential learning 
activities, reduced youth's increasing substance use over time.\16\
    <bullet> A longitudinal study of the effect of participation in 
LA's BEST programs on juvenile crime tracked students from 1994 through 
2003. It compared LA's BEST participants to two matched groups of 
students who either attended LA's BEST schools but not LA's BEST 
programs, or attended schools that did not have an LA's BEST program. 
Results indicate that participation in LA's BEST was significantly 
related to lower incidences of juvenile crime. Researchers estimate 
that this translates into an average savings to society of $2.50 for 
every dollar invested in the program.\17\ While participation rates 
were a key factor in crime reduction (see discussion of participation 
below), this is powerful evidence of the potential long-term effects of 
and benefits to society from after school programs.
    Finally, after school programs are viewed as one of many places 
that can tackle the growing problem of obesity among our nation's 
children and youth. Startling new statistics reveal that, by 2010, 
almost 50% of America's children will be obese; furthermore, almost two 
thirds of American children get little or no physical activity. Can 
after school programs promise to reduce body mass index (the common 
measure for obesity)? Probably not, although some evaluations have 
demonstrated improvements on this measure. Similar to impact on 
academic achievement test scores, it takes more than a few hours a week 
of after school participation to move the needle on significant markers 
of change. But after school programs can contribute to healthy 
lifestyles and increased knowledge about nutrition and exercise.
    <bullet> An experimental study of the Girlfriends for KEEPS program 
in Minnesota, which includes fun skill-building activities and physical 
activity, showed benefits to girls' intentions to maintain healthy 
behaviors, knowledge about proper diet practices, and preferences for 
physical activity.\18\
    <bullet> The experimental study of the Cooke Middle School After 
School Recreation Program found increases in participants' time spent 
on strength training activities.\19\
    <bullet> The experimental study of the Medical College of Georgia's 
FitKid program, which combines academic enrichment, healthy snacks, and 
physical activity, found that participants benefited from the program 
in terms of their percentage of body fat and cardiovascular 
fitness.\20\ The Yale Study of Children's After School Time, a 
longitudinal study of over 650 youth at 25 after school programs in 
Connecticut, found that youth who participated in after school programs 
were more likely than nonparticipants to experience reductions in 
obesity, after accounting for a variety of differences between 
participants and nonparticipants. This was true even after controlling 
for youth's initial BMI status at the beginning of the study, as well 
as demographic factors like poverty, race, and ethnicity.\21\
    Now, do all after school programs deliver on all these outcomes? Of 
course not. First, different programs target different sets of skills 
and it isn't appropriate to think one program can do it all. Second, we 
have learned a lot from the research about specific factors that make a 
big difference in whether or not a program can get these outcomes, and 
these map onto some key aspects of the 21st CCLC programs.
    First, the research I have conducted underscores a consistent 
pattern of winners and losers when it comes to access to after school 
opportunities, with middle and upper income children and youth getting 
access to and taking more advantage of enrichment outside of 
school.\22\ Specifically, children and youth whose families have higher 
incomes and more education:
    <bullet> are more likely to participate in after school activities.
    <bullet> do so with greater frequency during the week.
    <bullet> participate in a greater number of different activities 
within a week or a month
    <bullet> are more likely to participate in enrichment programs, 
while their disadvantaged peers are more likely to participate in 
tutoring programs, thus not reaping the benefits associated with 
enrichment experiences.
    These findings are particularly troublesome given the many studies 
and research syntheses--such as those from Child Trends, American Youth 
Policy Forum, and Harvard Family Research Project--which conclude that 
youth experience greater gains across a wide variety of outcomes if 
they participate with greater frequency (more days per week) in a more 
sustained manner (over a number of years).\23\
    21sT CCLC investments help level the playing field by targeting low 
income and poorly performing schools to ensure that all children and 
youth have access to programs, not just those who can afford them.
    Second, as I said above, sustained and frequent participation in 
programs is important in getting good outcomes. The latest 21st CCLC 
PPICS data indicates that more mature programs are more likely to be 
able to deliver on quality (Learning Points Associates, 2007), which 
gets students participating more frequently, with higher levels of 
engagement, which then helps them reap maximum benefit from the 
participation. Other research studies confirm this.
    Following up on students with long-term involvement (at least four 
years) in the LA's BEST program revealed that greater participation was 
significantly related to positive achievement on standardized tests of 
mathematics, reading, and language arts, when the influence of gender, 
ethnicity, income, and language status was controlled for.\24\
    Teach Baltimore is a summer academic program that proactively 
addresses the problem of summer learning loss by helping students 
develop and practice literacy skills over the summer vacation in a safe 
and fun environment. A randomized three-year field trial explored the 
effects of a multiyear summer school program in preventing summer 
learning losses and promoting longitudinal achievement growth. The 
total treatment group included 438 students from high-poverty schools. 
Results from the study indicate that students who participated at high 
levels for at least two of the three summers demonstrated statistically 
significant effects on learning across all three literacy domains that 
were tested.\25\
    These findings underscore the importance of programs being able to 
count on sustainable, multi-year funding that enables them the maturity 
to get good results.
    Third, many new research studies indicate that program quality is 
inextricably tied to student outcomes, with low quality programming 
actually doing harm in terms of supporting students' development\26\ 
(Vandell, Shumow, and Posner, 2005). Emerging research on after school 
program quality and its relationship to outcomes indicates that quality 
after school programs must do more than just ensure effective 
management practices and provide adequate physical and psychological 
safety. Quality after school programs also share the following 
features: appropriate supervision and structure, well-prepared staff; 
intentional programming with opportunities for autonomy and choice, and 
strong partnerships among the various settings in which program 
participants spend their day--schools, after school programs, and 
families.
    Unlike research on outcomes, research on after school program 
quality is largely descriptive, with only a handful of rigorously 
designed studies. Evidence regarding the characteristics of program 
quality is largely dependent on correlational studies and expert 
opinion. However, a small but powerful set of studies provides an 
emerging picture of some of the key elements of after school program 
quality and how they affect a range of developmental outcomes.
    <bullet> One of the primary conclusions of the Study of Promising 
After-School Programs was that children and youth benefit from an array 
of after school experiences which include quality after school programs 
as well as other structured school and community based activities 
supervised by adults. Specifically, researchers found that, in 
comparison to a less-supervised group, school-age children who 
frequently attended high-quality after school programs, alone and in 
combination with other supervised activities,\27\ displayed better work 
habits, task persistence, social skills, prosocial behaviors, and 
academic performance, and less aggressive behavior at the end of the 
school year.\28\
    <bullet> In a similar vein, both a comparative case study of two 
urban after school programs and the Maryland Afterschool Community 
Grants Program evaluation found that low-quality programs had staff who 
engaged in very negative and punitive interactions with youth rather 
than engaging in supportive behavior and practicing positive behavior 
management techniques.\29\
    <bullet> In their meta-analysis of 73 after school programs' 
impacts, Durlak and Weisberg found that positive impacts on academic, 
prevention, and developmental outcomes were concentrated in the 
programs that utilized strategies characterized as sequenced (using a 
sequenced set of activities designed to achieve skill development 
objectives), active (using active forms of learning to help youth 
develop skills), focused (program components devoted to developing 
personal or social skills), and explicit (targeting of specific 
personal or social skills). Moreover, the researchers found that, as a 
group, programs missing any of these four characteristics did not 
achieve positive results. These findings point to the importance of 
targeting specific goals, and designing activities around those goals 
intentionally.\30\
    21st CCLC programs are particularly well-poised to deliver quality 
programming. 21st CCLC is an extremely competitive program which means 
that only the best, well-implemented programs receive funding. Also 
related to quality, there is a 3 percent set-aside for states to use 
for training, technical assistance, and evaluation and State Education 
Agencies use this to provide ongoing training and technical assistance 
on resources and tools to promote quality implementation and staff 
development.
    Finally, we all know that learning doesn't stop when the school 
bell rings. Supporting learning throughout the day, throughout the 
year, and throughout a child's life requires partnerships. Programs are 
more likely to exhibit high quality when they effectively develop, 
utilize, and leverage partnerships with a variety of stakeholders like 
families, schools, and communities. A few research examples illustrate 
my point:
    <bullet> A review of over 20 years of research on Boys & Girls 
Clubs found that programs benefited from partnerships with schools, 
probation and police officers, and community-based providers by gaining 
referrals and access to information on youth, such as school records. 
Strong partnerships can also provide programs with important resources, 
such as information, in-kind resources, and other sources of support 
that can make individual programs become more efficient in 
accomplishing their goals of benefiting youth.\31\
    <bullet> In the Massachusetts Afterschool Research Study, 
researchers found that programs with stronger relationships with school 
teachers and principals were more successful at improving youth's 
homework completion, homework effort, positive behavior, and 
initiative. This may be because positive relationships with schools can 
foster high-quality, engaging, and challenging activities and can also 
promote staff engagement.\32\
    Developing partnerships is an area where 21st CCLC programs are 
strong. The typical 21st CCLC program has six community partners who 
contribute to the project by providing services and resources not 
directly funded by the program itself. These partners serve to improve 
program quality, help engage children and youth throughout the 
community, and help 21st CCLC programs leverage additional resources 
for sustainability
    In closing, I want to reiterate that we know a lot about what works 
for children and youth during the after school hours and underscore the 
importance of the 21st CCLC grants program as a core educational and 
developmental support for our nation's children. I encourage you to use 
the research I have presented to make informed decisions about resource 
allocations, and set reasonable expectations for participation in 21st 
CCLC programs.
    Thank you. Priscilla M. Little
                                endnotes
    \1\ Jenner, E. J., & Jenner, L. W. (2004). Academic outcomes in 
Louisiana's 21st Century Community Learning Centers. Baton Rouge, LA: 
Policy & Research Group.
    \2\ Vandell, D., Reisner, E., & Pierce, K. (2007). Outcomes linked 
to high-quality afterschool programs: Longitudinal findings from the 
study of promising practices. Irvine, CA: University of California and 
Washington, DC: Policy Studies Associates. Available at http://
www.gse.uci.edu/docs/PASP%20Final%20Report.pdf.
    \3\ Lauer, P. A., Akiba, M., Wilkerson, S. B., Apthorp, H. S., 
Snow, D., & Martin-Glenn, M. L. (2006). Out-ofschool time programs: A 
meta-analysis of effects for at-risk students. Review of Educational 
Research, 76, 275--313.
    \4\ Reisner, E. R., White, R. N., Birmingham, J., & Welsh, M. 
(2001). Building quality and supporting expansion of After-School 
Projects: Evaluation results from the TASC After-School Program's 
second year. Washington, DC: Policy Studies Associates; White, R. N., 
Reisner, E. R., Welsh, M., & Russell, C. (2001). Patterns of student-
level change linked to TASC participation, based on TASC projects in 
Year 2. Washington, DC: Policy Studies Associates.
    \5\ Klein, S. P., & Bolus, R. (2002). Improvements in math and 
reading scores of students who did and did not participate in the 
Foundations After School Enrichment Program during the 2001--2002 
school year. Santa Monica, CA: Gansk & Associates.
    \6\ Espino, J., Fabiano, L., & Pearson, L. M. (with Kirkwood K. P., 
Afolabi, K., & Pasatta, K.). (2004). Citizen Schools: Evidence from two 
student cohorts on the use of community resources to promote youth 
development. Phase II report of the Citizen Schools evaluation. 
Washington, DC: Policy Studies Associates; Fabiano, L., Pearson, L. M., 
& Williams, I. J. (2005). Putting students on a pathway to academic and 
social success: Phase III findings of the Citizen Schools evaluation. 
Washington, DC: Policy Studies Associates; Fabiano, L., Pearson, L. M., 
Reisner, E. R., & Williams, I. J. (2006). Preparing students in the 
middle grades to succeed in high school: Findings from Phase IV of the 
Citizen Schools evaluation. Washington, D.C.: Policy Studies 
Associates. Available at http://www.policystudies.com/studies/youth/
Citizen%20Schools%20Phase%20IV%20Final%20Report--12-26-06.pdf.
    \7\ Birmingham, J., Pechman, E. M., Russell, C. A., & Mielke, M. 
(2005). Shared features of high-performing after-school programs: A 
follow-up to the TASC evaluation. Washington, DC: Policy Studies 
Associates.
    \8\ Redd, Z., Cochran, S., Hair, E., & Moore, K. (2002). Academic 
Achievement Programs and Youth Development: A Synthesis. Washington DC: 
Child Trends; Russell, C. A., Reisner, E. R., Pearson, L. M., Afolabi, 
K. P., Miller, T. D., & Mielke, M. B. (2006). Evaluation of DYCD's Out-
of-School Time Initiative: Report on the first year. Washington, DC: 
Policy Studies Associates. Available at http://www.policystudies.com/
studies/youth/OST.html.
    \9\ Cooper, H., Charlton, K., Valentine, J. C., & Muhlenbruck, L. 
(2000). Making the most of summer school: A meta-analytic and narrative 
review. Monographs of the Society for Research in Child Development, 
65(1), 1--118.
    \10\ LeCroy, C. W. (2003). Experimental evaluation of ``Go 
Grrrls.'' Tucson, AZ: Author.
    \11\ Phillips, R. S. C. (1999). Intervention with siblings of 
children with developmental disabilities from economically 
disadvantaged families. Families in Society: The Journal of 
Contemporary Human Services, 80(6), 569--577.
    \12\ Taylor, A., LoSciuto, L., Fox, M., & Hilbert, S. (1999). The 
mentoring factor: An evaluation of Across Ages. Intergenerational 
program research: Understanding what we have created. Binghamton, NY: 
Haworth.
    \13\ Durlak, R., & Weissberg, R. (2007). The Impact of After-School 
Programs That Promote Personal and Social Skills. Chicago: CASEL.
    \14\ Philliber, S., Kaye, J. W., & Herrling, S. (2001, May). The 
national evaluation of the Children's Aid Society Carrera-Model Program 
to prevent teen pregnancy. Accord, NY: Philliber Research Associates. 
Available at http://www.childrensaidsociety.org/media/general/cas-
Teen--Pregnancy--Prevention.pdf; Philliber, S., Kaye, J. W., Herrling, 
S., & West, E. (2002). Preventing pregnancy and improving health care 
access among teenagers: An evaluation of the Children's Aid Society--
Carrera Model. Perspectives on Sexual and Reproductive Health, 34(5), 
244--251. Available at http://www.agiusa.org/pubs/journals/3424402.pdf.
    \15\ Weiss, F. L., & Nicholson, H. J. (1998). Friendly PEERsuasion 
against substance use: The Girls Incorporated model and evaluation. 
Drugs & Society, 12(1/2), 7--22.
    \16\ Carter, S. L., Straits, K. J. E., & Hall, M. (2006, November). 
Project Venture: Evaluation of a positive, culture-based approach to 
substance abuse prevention with American Indian youth. Paper presented 
at the Symposium for Experiential Education Research, St. Paul, MN.
    \17\ As described in Goldschmidt, P., Huang, D., & Chinen, M. 
(2007). The long-term effects of after-school programming on 
educational adjustment and juvenile crime: A study of the LA's BEST 
after-school program. Los Angeles: UCLA/CRESST. Available at http://
www.lasbest.org/resourcecenter/LASBEST--DOJ--Study--Brief.pdf.
    \18\ Story, M., Sherwood, N. E., Himes, J. H., Davis, M., Jacobs, 
Jr., D. R., Cartwright, Y., et al. (2003). An after-school obesity 
prevention program for African-American girls: The Minnesota GEMS Pilot 
Study [Supplement 1]. Ethnicity & Disease, 13(1), 54--64.
    \19\ Lauver, S. C. (2002). Assessing the benefits of an after-
school program for urban youth: An impact and process evaluation. 
Philadelphia: Author.
    \20\ Yin, Z., Gutin, B., Johnson, M., Hanes, J., Jr., Moore, J. B., 
Cavnar, M., et al. (2005). An environmental approach to obesity 
prevention in children: Medical College of Georgia FitKid Project year 
1 results. Obesity Research, 13, 2153--2161.
    \21\ Mahoney, J. L., Lord, H., & Carryl, E. (2005). Afterschool 
program participation and the development of child obesity and peer 
acceptance. Applied Developmental Science, 9(4), 202--215. Available at 
http://www.leaonline.com/doi/abs/10.1207/s1532480xads0904--3.
    \22\ This information is based on research conducted by Harvard 
Family Research Project on the contextual predictors of participation 
in out-of-school time. For a complete description of the study and its 
methodology, visit the HFRP website at http://www.gse.harvard.edu/hfrp/
projects/ost--participation.html
    \23\ Redd, Cochran, Hair, & Moore, 2002; American Youth Policy 
Forum. (2006). Helping youth succeed through out-of-school time 
programs. Washington, DC: Author; Simpkins-Chaput, S., Little, P. M. 
D., & Weiss, H. B. (2004). Understanding and measuring attendance in 
out-of-school time programs. Issues and Opportunities in Out-of-School 
Time Evaluation Brief No. 7. Cambridge, MA: Harvard Family Research 
Project; Chaskin, R. J., & Baker, S. (2006). Negotiating among 
opportunity and constraint: The participation of young people in out-
of-school-time activities. Chicago: Chapin Hall Center for Children; 
Moore, K., & Zaff, J. F. (2002). Building a better teenager. 
Washington, DC: Child Trends.
    \24\ Huang et al., 2007.
    \25\ Borman, G., Dowling, N., Fairchild, R., Boulay, M., & Kaplan, 
J. (2006). The longitudinal achievement effects of multi-year summer 
school: Evidence from the Teach Baltimore Randomized Field Trial. 
Baltimore: Center for Summer Learning.
    \26\ Vandell, D. L., Shumow, L., & Posner, J. (2005). After-school 
programs for low-income children: Differences in program quality. In J. 
Mahoney, J. Eccles, & R. Larson (Eds.), Organized activities as 
contexts for development: Extracurricular activities, after-school and 
community programs (pp. 437--456). Mahwah, NJ: Erlbaum.
    \27\ Programs were rated using the Promising Practices Rating Scale 
which assesses eight processes: 1) supportive relations with adults, 2) 
supportive relations with peers, 3) student engagement in activities, 
4) opportunities for cognitive growth, 5) mastery orientation, 6) 
appropriate program structure, 7) setting chaos, and 8) staff 
overcontrol.
    \28\ Vandell et al., 2006.
    \29\ Vandell, D. L., Shumow, L., & Posner, J. (2005). After-school 
programs for low-income children: Differences in program quality. In J. 
Mahoney, J. Eccles, & R. Larson (Eds.), Organized activities as 
contexts for development: Extracurricular activities, after-school and 
community programs (pp. 437--456). Mahwah, NJ: Erlbaum; Gerstenblith, 
S., Soule, D., Gottfredson, D., Lu, S., Kellstrom, M., Womer, S., et 
al. (2005). After-school programs, antisocial behavior, and positive 
youth development: An exploration of the relationship between program 
implementation and changes in youth behavior. In J. Mahoney, J. Eccles, 
& R. Larson (Eds.), Organized activities as contexts for development: 
Extracurricular activities, after-school and community programs (pp. 
457--477). Mahwah, NJ: Erlbaum.
    \30\ Durlak & Weissberg, 2007.
    \31\ Arbreton, A. J. A., Sheldon, J., & Herrera, C. (2005). Beyond 
safe havens: A synthesis of research on the Boys & Girls Clubs. 
Philadelphia: Public/Private Ventures.
    \32\ Intercultural Center for Research in Education & National 
Institute on Out-of-School Time, 2005.
                                 ______
                                 
    Chairman Kildee. Thank you, Ms. Little.
    Ms. Kough?

   STATEMENT OF THERESA KOUGH, EDUCATION ASSOCIATE, DELAWARE 
                    DEPARTMENT OF EDUCATION

    Ms. Kough. Hello. My name is Theresa Vendrzyk Kough, and I 
am the Delaware Department of Education's director for after-
school programs.
    My testimony is going to take a bit of a different tactic 
than my other witnesses because I really think the power of 
21st Century programs is a partnership that is being built up 
between schools and community-based organizations, and in my 
presentation I want to highlight the steps we take at the state 
education department to assure that academics are a part of 
21st Century.
    In Delaware we view the 21st Century grant program as a 
tool to provide low-income and low-achieving students with rich 
learning experiences, which will impact academic achievement.
    One of the things we do is we provide technical assistance 
to potential grantees, and these technical assistance meetings 
are held before a competition. In the first technical 
assistance meeting, we discuss the 21st Century program, its 
goals and stress the importance of creating a strong 
partnership between a school and another agency and the 
importance of imbedding academic content within enrichment 
activity.
    In our second technical assistance meetings with potential 
grantees, we discuss the request for proposal and the use of 
JADA in forming a measuring grant goal.
    Then we try to select high-quality proposals. We provide 
training for our review team on the 21st Century program and 
goals and the importance, again, of funding programs that are 
going to be a strong relationship between schools and 
partnering agency.
    Then we have a site-visit component. If you are lucky 
enough to get a grant, you get a visit from Teresita Cuevas, 
who is our technical assistance coordinator. And Teresita also 
works with all of our site monitors and provides professional 
development for our grantees. And in her initial visit, she 
will review with the grantee what we are expecting of them, she 
will explain how we are going to monitor with the tools and 
explain the site-visit process.
    Our sites are visited at least twice a year--fall and 
spring--and once in the summer if you have a summer program. 
Each visit is a 3-hour minimum, and in addition to checking on 
things like safety, enrollment, we also monitor for lesson 
plans, we monitor for communication between the after-school 
program and the regular school program and the academic content 
being seen in the activities that the students are 
participating in.
    After we do that, a site report is issued to the main grant 
contact, the site coordinators and the school principal. We 
give the site report to the principals who have students in the 
after-school program. We have been doing this for about a year 
and a half, and the principals have been very positive about 
the feedback that they receive. A site report, too, can result 
in another visit from either Teresita or myself depending on 
what we see.
    Our final step in assuring quality in 21st Century 
programs, is our continuation application. Each year grantees 
must complete a continuation application and provide evidence 
on measurable goals, which include academic outcome. Failure to 
reach goals may result in a reduced funding, and our grantees 
have gotten very good at looking at where they want to be with 
their program.
    Our next step--this year what is happening in Delaware, 
Delaware has a unique student identifier, and so we are quite 
lucky with that. And this year what we are doing is all 
participating schools must tag the students receiving 21st 
Century services in our eSchoolPlus system, which is our 
statewide people accounting system.
    That tagging of students is going to allow us to populate a 
supplement education data cube within our warehouse. The data 
cube was created by a genius we have working for us, Dr. Qi 
Tao, and what Tawny and I are trying to do is look at for the 
first time what is happening to students across programs, not 
just in one out-of-school situation. And so the data in this 
cube will be for Extra Time, Supplemental Education Services 
and the 21st Century. We hope to add to the growing research 
base that Priscilla is working on so hard.
    In conclusion, the strength of the current 21st Century 
program lies in the partnerships being created between schools 
and community-based organizations. The programs being created 
are stronger than either schools or community agencies could 
provide on their own, and a change in this funding, in my 
opinion, will have a negative effect on the quality and number 
of after-school programs.
    Thank you for the opportunity to testify.
    [The statement of Ms. Kough follows:]

  Prepared Statement of Theresa Vendrzyk Kough, Education Associate, 
        Delaware Department of Education, After School Programs

    As Delaware's Department of Education (DDOE) After School Program 
co-coordinator, I am honored to present testimony about the work we are 
doing in Delaware's 21st Century Community Learning Centers (CCLC). My 
testimony describes DDOE's current monitoring initiative, our approach 
to accountability, and plans for continued improvement of our CCLC 
program.
    As the 21st CCLC state program officer, I take very seriously the 
monitoring, funding, and continuous improvement of our 25 programs 
operating in 55 sites throughout the state. The DDOE views the 21st 
CCLC grant program as a tool to provide students with rich learning 
experiences that will directly affect their academic achievement. DDOE 
is working hard with its 21st CCLC centers to ensure that center 
personnel are addressing its program goals of improving students' 
performance on statewide assessments and offering services designed to 
reinforce and complement traditional academic programs.
DDOE's Current Monitoring Initiative
            Grantees' Applications for Funding.
    The first step in developing centers that can meet our program 
goals is helping grantees understand how to respond to a DDOE-issued 
Request for Proposal (RFP). Delaware's grantees include school 
districts, institutions of higher learning, and both local and 
nationally affiliated community based organizations. It is important 
that they realize, from the beginning of the grant process, that the 
DDOE will hold them accountable for the objectives they outline in 
their initial responses to an RFP.
    We help potential grantees apply for funding through technical 
assistance meetings, at least two of which occur prior to the release 
date of a new RFP. In particular, we provide instruction on the 
creation of goals and outcome statements, since a potential grantee 
must provide concrete goals, objectives, and milestones for a proposed 
program in the initial request for funding. We also include examples, 
such as the following taken from a current RFP:
    Goals, objectives and milestones are all outcomes. Your proposal 
should identify these three kinds of outcomes. Outcomes themselves are 
statements that tell how the project's target population would improve. 
Every outcome should describe a change in a target population. In 
addition, they set standards of progress towards alleviating the 
problems identified in the needs assessment. Statements that describe 
strategies or management issues are not proper outcome statements.''
    An example of an outcome statement containing all the above 
elements:
    By June 2008, 70% of eighth graders in the two participating middle 
school sites who scored a 1 or 2 on the DSTP in the fifth grade will 
achieve a rating of 3 or more on the DSTP reading examination, a 20% 
increase over current levels.
    In addition, we encourage grantees to include local baseline data 
when constructing objectives for their programs and to use both local 
and state testing data as evidence of success.
            Selecting High-Quality Proposals.
    An independent panel comprised of persons with experience in such 
areas as out-of-school programs, reading/language arts, mathematics, 
and strategies to improve the success of at-risk students or schools, 
reviews each response to a new 21st CCLC proposal. The review panel 
attends a training session prior to reviewing the applications, which 
emphasizes the importance of funding programs that represent strong 
relationships between schools and their partnering agencies that will 
help participating students succeed.
            Monitoring Program Performance.
    Site visits. DDOE, through a contract with the University of 
Delaware, continues to monitor and provide technical assistance to 
grantees after the initial grant award. This process begins with a 
visit by a technical assistance coordinator who outlines the grantees' 
responsibilities, such as the creation of a sustainability plan, 
compliance with the Office of Child Care Licensing regulations, site-
monitoring schedules, data collection and required attendance at 21st 
CCLC professional development sessions.
    Next site monitors, retired teachers with a broad base of 
experience and who receive training on the 21st CCLC program, make 
periodic site visits. Monitors visit all 21st CCLC sites operating a 
school-year program twice a year and those operating a school-year-
plus-summer program three times per year. At least one visit is 
unannounced. Each monitor spends a minimum of three hours at each site 
and writes a report documenting the site visit, which is sent to the 
grant contact, principals of participating school, and site 
coordinators. In these three hours, monitors review enrollment numbers, 
overall safety, check-in and dismissal procedures, as well as document 
evidence of communication with participating students' teachers, 
evidence of lesson planning and embedded academic activities within 
recreational pursuits. For example, at a current site that offers 
cooking lessons, the monitor looks for evidence that the program 
includes information on fractions. The technical assistance coordinator 
and I as state program director both review all site visit reports. 
They request clarification and/or a meeting with appropriate site 
personnel to resolve any problems noted in the report. Feedback, 
especially from school principals on the site-visit review process, has 
been positive. This process, which has evolved over the last several 
years, helps ensure that after-school and regular school activities are 
in alignment.
    Assessment Tools. Beginning this year, as part of our continued 
effort to build quality after-school programs, we require that grantees 
use a Self Assessment and Continuous Improvement tool which was adapted 
from the North Carolina Center for Afterschool Programs Established 
Standards of Excellence Self-Assessment Tool: K-12. This self-
assessment tool groups the following eleven (11) characteristics, into 
four (4) key categories that are indicative of high-quality after-
school programming:
    Program Management and Delivery
    Safe, Healthy, and Orderly Environment
    Qualified and Diverse Staff
    Opportunities to Learn in Diverse Environments
    Program Connections
    Positive Participant and Staff Interactions
    Active Family and Community Partnerships
    Consistent Participant Attendance
    Program Participants
    Greater Personal Responsibility
    Improved Academics Achievement
    Greater Creativity and Well-Being
    Program Finance and Growth
    Fiscal Planning and Management
    Sustainability
    Guidelines in the self-assessment tool help both new and 
experienced grantees plan and appraise their progress in providing the 
best programs possible for the children and families they serve. Our 
monitors also evaluate evidence of the use of the assessment tool in 
their site-visit reports.
            Application for Continued Support.
    The final step in our efforts to build programs that play a role in 
improving students' academic performance is use of the Continuation 
Application. Delaware initially awards five-year 21st CCLC grants with 
full funding for the three years, followed by a 25 percent reduction in 
year four, and a 50 percent reduction in year five. After the initial 
grant, award grantees must complete a Continuation Application 
annually. In the Continuation Application, each grantee must provide 
evidence of progress on the measurable goals and outcomes listed in the 
grant application. These goals and objectives include academic 
outcomes.
Accountability
            Delaware's Contract with RMC Research Corporation.
    To comply with federal legislation requiring comprehensive 
evaluation of the effectiveness of the state's 21st CCLC programs, the 
DDOE gathers data related to each site. The state contracted with RMC 
Research Corporation to review this existing data and address questions 
related to program implementation and effectiveness.
            Conclusions RMC Evaluation.
    1. The Delaware 21st CCLC program is reaching out to the community. 
Between 2003 and 2004, the number of centers grew more than 250 
percent, from 18 to 46. Grantees grew more diversified, with an 
increased presence of local and nationally-affiliated community-based 
organizations, in addition to school districts and institutions of 
higher education. All programs reported partnerships with public and 
private organizations, both for profit and not-for-profit, and 
including faith-based organizations. The program reached 123 schools 
ranging from preK to the ninth grade, including a growing number of 
charter schools. In the past school year, five of the 17 charter 
schools in Delaware (29 percent) participated in the program.
    2. The program is serving large percentages of minorities and low-
income students. In SY 2005-2006, 46 centers served 3,792 students and 
933 adults. Of these 48 percent were eligible for the free and reduced 
meal program (FARM), compared to 34 percent in the statewide student 
enrollment. Minority students comprised 45 percent of the student 
enrollment statewide and 73 percent of the 21st CCLC students. However, 
students with disabilities were less likely to attend the centers (nine 
vs. 14 percent statewide). The 48 centers served mostly students at the 
elementary grade levels, with fewer than 10 percent in grades seven to 
nine. In response to this finding, the DDOE included competitive 
priority points for grantees proposing to serve middle and high school 
students in the recently concluded Cohort 5-21st CCLC competition. Of 
the ten new grantees added after this competition; eight are serving 
middle and high school students.
    3. The program is providing academic support and a broad array of 
additional services for the youth. In the past school year, the 46 
centers offered a total of 1,603 hours a week (34.84 hr/week per 
program) of academic activities and support, in addition to 439 hours 
(9.54 hr/week per program) of additional activities. Frequently 
addressed academic contact areas included reading, mathematics, 
technology, and arts/music. Academic support included tutoring, 
mentoring, remedial education, and supplemental education. Most 
programs also offered recreation, cultural enrichment, health 
education, and drug and violence prevention activities.
    4. 21st CCLC participants are making academic gains. The analysis 
of results in the DSTP Reading and Mathematics suggest that 21st CCLC 
students improved scores at a rate that were consistent with average 
Delaware students, even though the program is serving large numbers of 
children and youth at-risk of academic failure. When compared with 
statewide averages, the 21st CCLC students have lower DSTP scores; yet, 
when compared to peers from the same schools, they showed stronger 
performances. A longitudinal analysis indicated that gains in DSTP 
mathematics scores of third-grade CCLC students were larger than the 
average gains for all Delaware students.
Next Steps
    This year (2007-2008) all schools and/or districts, serving as 
either the lead or partnering agency in a 21st CCLC grant, must tag 
students receiving services through 21st CCLC programs in eSchool Plus, 
Delaware's statewide pupil-accounting system. Tagging students' unique 
identifiers to indicate that they are receiving CCLC services, will 
allow for analyses of these students over their entire school careers. 
Dr. Qi Tao, Education Associate in the Technology Management and Design 
workgroup, has designed a supplemental service data cube within DDOE's 
data warehouse which will allow for the analysis of data across 
programs. In addition, we will be able to compare measures of 
attendance, disciplinary action, graduation, and DSTP proficiency of 
students who have received 21st CCLC services with those who have not 
received them
Conclusion
    21st CCLC is a relatively new program. It will celebrate its tenth 
birthday this year. The program as it exists today has only been in 
operation since 2002. It has made great strides. I believe its main 
strength lies in building partnerships between the school and 
community-based organizations. This partnership has resulted in 
stronger and better programs than either the schools or agencies could 
create on their own. We know that all students need to participate in 
vibrant and exciting after school programming to learn to connect with 
the world beyond school. Currently, over 14 million students leave 
school at 3:00 pm or earlier, with nowhere to go. The administration's 
current proposal to convert the 21st CCLC program to a voucher system 
may force programs to close, which would result in more students with 
no place to go after school. In addition, the move to a voucher system 
would undermine existing public, private, community, and faith-based 
partnerships that are working well. I think the 21st CCLC program, as 
it now exists, has earned the right to continue. It offers the best 
chance to offer seamless services to our children.
    Thank-you for this opportunity to testify, and I look forward to 
answering any questions you may have.
                               references
DDOE 21st CCLC Recommended Self Assessment Tool. Available at; at:

 http://www.doe.state.de.us/programs/si/files/DE%2021st%20CCLC%20Self-
                    Asessment%20Tool4categories.pdf

21st CCLC Profile and Performance Information Collection System(PPICS). 
        Available at:

              http://ppics.learningpt.org/ppics/index.asp.

RMC research Corporation (2006). Delaware 21st Century Community 
        Learning Centers: Evaluation Report (SY2003-0 04-SY2005-06). 
        Available at:

             http://www.doe.state.de.us/programs/si/files/
Delaware%2021st%20Century%20Community%20Learning%20Centers%20Final%20Rep
                                ort.pdf

                                 ______
                                 
    Chairman Kildee. Thank you very much, Ms. Kough. Appreciate 
your testimony, the testimony of all of you.
    The Admiral serves in several committees down here now and 
has to go to another committee at this time, but he wanted to 
remain here, of course, to hear all your testimony, and I 
appreciate that very much.
    The rules of the committee adopted on January 24 give the 
chair the discretion in how to recognize members for 
questioning. It is my intention, as chair of this subcommittee, 
to recognize those members present at the beginning of the 
hearings in order of their seniority on this subcommittee. 
Members arriving after the hearing began will be recognized in 
order of appearance, and I recognize myself for 5 minutes.
    Ms. Gamble, can you discuss the importance of after-school 
programs forming stable partnerships in the community? How 
would the president's after-school voucher proposal impact the 
ability of high-quality programs to establish and maintain the 
stability necessary to foster those partnerships?
    Ms. Gamble. Well, first of all, I think the voucher program 
would take away a lot of stability we currently have, 
particularly in terms of regular student attendance in a 
particular after-school program.
    As far as the voucher program is concerned, I believe it 
would be quite difficult for us to sustain partnerships with a 
voucher program. We already have very good partnerships with--
and if you are talking about a voucher program, where money 
could possibly go to those partners, it would just be self-
defeating to have money going a lot of different areas.
    Chairman Kildee. Also, could you comment on just about the 
importance of making learning fun for kids in the after-school 
programs? And I have been to certain programs, where the kids 
seem to be really happy to be there. They are learning, but it 
is a different process of learning and different environment of 
learning than you get in the traditional classroom.
    Can you discuss how--even for helping children 
academically--it is important that these programs be designed 
so kids don't see them just as an extension of the regular 
school day?
    Ms. Gamble. Sure. One of the first things we do is poll the 
students on what kinds of activities they would like. After 
that, it is our job to integrate academics into whatever they 
are asking for. Even if it is art, gym, nutrition, anything, we 
try to integrate academics into each of those subject matters.
    Some other things we might do is talk to teachers and 
administrators about what the needs are in that particular 
building.
    But on the top of the list, we always want to make sure the 
kids don't know that they are learning, but we do want to be 
sort of an extension of the school day in terms of offering 
subject matter that is going to help those kids in the areas 
they need help in.
    Chairman Kildee. Thank you very much.
    Chief Carroll, you recommended that there be an increased 
focus on after-school programs for at-risk middle school and 
high school students. Could you elaborate on that?
    Mr. Carroll. Yes, sir. The older school children are more 
at risk for gang activity, they are more at risk for drug 
activity, and then they are more at risk for being victims of 
automobile accidents or other types of crime. That particular 
age group is least served in this process so we are 
recommending that funding be increased for middle and high 
school students so that can be corrected.
    Chairman Kildee. So you would maintain the programs for the 
younger students but increase the participation by having more 
middle school and high school students involved in that.
    Mr. Carroll. Yes, sir. That is correct.
    Chairman Kildee. We do find almost weekly, if not more 
often, children in cars speeding home from school maiming 
themselves or killing themselves.
    Mr. Carroll. In my particular area, we have a particular 
problem with that because our kids are of the economic status 
they can have cars. But even where the economic status is not 
that, what you have then is you have six or seven kids in the 
same car, and that, obviously, causes a different kind of 
problem.
    Chairman Kildee. Thank you very much, Chief.
    Ms. Little, can you discuss how federal funding helps 
after-school programs access and leverage other funding and the 
impact that the president's proposed cut would have on that 
ability?
    Ms. Little. Sure. The programs that I look at through the 
evaluations I have seen and certainly through the work that we 
have done tracking indicates no program just gets any one 
funding stream. But what 21st Century does is provide some 
stable resources that can then be leveraged with other work.
    There is a study about to be released on the cost of 
quality programming that the Wallace Foundation supported and 
the finance project and public-private ventures did, and I 
encourage you to get your hands on it as soon as it comes out 
because what you will see is that programs have multiple 
funding streams and most of the ones in this had public dollars 
from 21st Century. These programs can't survive without it.
    Chairman Kildee. Thank you very much.
    And, Ms. Kough, you mentioned the challenge of ensuring 
that students with disabilities attend after-school programs. 
Could you expand on that?
    Ms. Kough. Yes. One of the things that we had done when we 
did our initial look at which students and the state were 
getting services, we realized that the bulk was at elementary, 
and we had very few doing something for disability. So within 
our competition, what we do is we give priority points now for 
middle and high school programs and those with disabilities. We 
are in the middle of a competition as we speak, and one of our 
potential grantees is looking at a program that would serve 
children with disabilities.
    So we do a lot, again, in that preconference to talk about 
the children who aren't being served and how people can partner 
to get programs for those students. So we are doing a lot with 
that kind of work.
    Chairman Kildee. I am personally very happy with that. I am 
sure the governor is also, because he and I both have pushed 
the IDEA program. But that should be all kids with 
disabilities, and all programs should be included.
    Ms. Kough. Yes, one of our problems that we have had is 
some of the facilities, making sure that there are enough 
facilities available for children with disabilities. So that 
seems to have been a barrier, but we are moving forward.
    Chairman Kildee. Thank you very much.
    I now recognize and yield to my friend the governor of 
Delaware, Mr. Castle.
    Mr. Castle. Thank you, Mr. Chairman.
    I would like to thank all the witnesses.
    And I want to--sort of a general question about the 
educational component of what you are doing.
    It is my understanding, when this program merged into No 
Child Left Behind, part of what happened there was an increase 
in the educational component--academic component of these 
programs. And I am all for these programs. You don't have to 
argue with me about the money needed or whatever it may be. But 
I am very concerned about making sure that we are improving the 
academic status of these kids as well, and I would be 
interested in your comments with respect to that.
    And I will start with you, Ms. Kough, if I can. Just 
looking at what you stated and what you wrote in your written 
testimony about the review of all this, which included academic 
activities and support, can you talk to us a little bit about 
the focus on that activity, either in terms of hours, time or 
methodology used to make sure there is an academic aspect to 
the after-school programs?
    Ms. Kough. I think so. First of all, I have been working 
with these programs now for 3 years, and as I said, when I 
really looked at the data to try to look at what was happening 
in the programs as I took things over, I, like you, 
Representative Castle, had a concern about what children were 
doing in these programs. Because I feel, if parents and 
children are investing time, they should be getting a lot out 
of it.
    So one of the things that we have done in Delaware is we 
have adapted North Carolina's self-assessment tool because what 
we want to do is have our grantees take ownership of their 
program. And it is a formal process that we are doing 
professional development around, and one of the things they 
look at on a continuous-improvement model is what are we doing 
every day, and are there academic components?
    For instance, we have one middle school program where it 
has a big cooking component. The grantees looked at what they 
were doing in that and realized with things like the 
Afterschool Alliance toolkit that that cooking activity would 
be a really great place to deal with math issues. And so then 
we help facilitate those conversations between the after-school 
and the school to say, ``Okay, these kids, where are they in 
fractions?''
    So I think, again, the power of 21st Century is that it 
allows those conversations to go on. But the big thing we are 
trying to do is get ownership for our grantees and give them 
the tools to do assessments of their own programs so that they 
are continually looking at what they are providing those 
students.
    Mr. Castle. Thank you.
    Ms. Gamble, you are on the ground in these programs. Tell 
us your understanding of the academic--you did a little bit in 
your testimony--but the academic component.
    Ms. Gamble. Sure. We address that in a number of different 
ways, but it is important that you do have constant 
conversations with the academic people in the school building.
    One good example of a way that we align ourselves with 
academics is in our summer program. We do a program called 
Don't Sit Get Fit, which is a nutrition and fitness program. We 
actually have math teachers do the morning portion--the 
nutrition portion--and the kids are actually getting more math 
skills in the morning. Then in the afternoon they do the 
recreation piece.
    But I think it is very important that we stay on top of 
what is going on and with specific buildings because each 
building has its own needs. So we do a lot of looking at state-
assessment tests, talking to staff in the buildings and making 
sure we are offering something that is going to help build the 
weaknesses in those particular buildings.
    Mr. Castle. Do you have any kind of a review system to 
determine if they are doing better academically? You may not 
have a comparison to other kids, but, I mean, you do it, but 
can you judge that you are actually doing better----
    Ms. Gamble. Sure. Our external evaluator, which is Michigan 
State University Outreach & Partnerships, evaluates all the 
Bridges programs on a yearly basis, and we are starting to see 
some very positive results--and I can get that information to 
you if you like--in terms of how kids and their parents and 
teachers--who we all survey--how they feel about the kids' 
academics, and we are really starting to see positive results 
as a result of the 21st Century funding.
    Mr. Castle. Good.
    Chief Carroll and Ms. Little, I would like to sort of 
direct the same question in your roles as to how you see the 
academic component of these after-school programs, if you 
could----
    Mr. Carroll. Well, I think, Congressman, from a law 
enforcement point of view, this is a crime-prevention program 
in its best thought. You are not only teaching these kids 
academically, you are teaching them socially, you are teaching 
them community, placement, what they should be doing as far as 
sociability goes. And every bit of that that helps the child 
stay away from law enforcement is an amazing, positive step.
    If we don't end up with them, that is only good, and this 
is a program that allows them to take their energy to a 
positive side and then to get some responsibility for their 
actions, which I can't think of a downside to it. It seems to 
me that we are spending money on a program like this, or we are 
spending money later to build prisons, and this is much better 
than that.
    Mr. Castle. Thank you.
    Ms. Little, do you have any comments on----
    Ms. Little. I will briefly. What the research clearly 
shouts out at you is the academic component is necessary but 
not sufficient if you want to get academic gain. Because what 
you want to do is have sound academics provided in a holistic 
approach, a developmental education approach, if you will. The 
enrichment activities that Ms. Gamble and Ms Kough were talking 
about combined with good sports, good arts, good rec, good 
health--and you name it--you can do a number of combinations--
but that is what is getting the good outcomes. The straight-up 
academic programs, you are not seeing as good outcomes as if 
you combine it with other activities.
    Mr. Castle. Thank you.
    I yield back, Mr. Chairman.
    Chairman Kildee. Thank you, Governor.
    The gentlelady from Hawaii, Ms. Hirono, is recognized for 5 
minutes.
    Ms. Hirono. Thank you, Mr. Chairman.
    Ms. Little, perhaps you can answer this for me. Do all of 
the states have money from the 21st Century program? All 50 
states? Do you know?
    Ms. Little. I believe they do, but I actually don't know 
the answer to that. Could I defer to someone else, or no?
    Ms. Hirono. Is there someone else on the panel who can 
answer that question?
    Ms. Kough. Yes, I am sure they do.
    Ms. Hirono. Ms. Kough?
    Ms. Kough. Yes, they do.
    Ms. Hirono. Ms. Little, again, you have done a lot of 
research on the importance of quality after-school programs, 
and I am glad that there is a research basis for this, just as 
research now shows how important quality early education is to 
the students' success in life.
    And I was wondering whether--I had earlier asked a question 
whether every state gets money from the 21st Century program 
because Hawaii--that is the state I represent--has an A Plus 
program that it put in place many--it preceded the 21st Century 
program. And I wonder whether you have done any research on the 
efficacy of Hawaii's after-school program?
    Ms. Little. I am familiar with it. I am not aware of a 
statewide evaluation of it, but certainly it has a good 
reputation. And what I can say is that, what 21st Century has 
been very good with--across the board the SEA's have been very 
good about taking their 3 percent set-aside and using it both 
for evaluation and quality-improvement efforts, which I think 
is why the 21st Century programs are as strong as they are 
today.
    Ms. Hirono. And I am glad that all of you noted that what 
the 21st Century program does is it creates partnerships all 
across the board, and the chief certainly talked about that.
    And as far as the president's idea for moving toward a 
voucher program, would all of you agree that that is fixing a 
problem that is not broken?
    (All heads nod yes.)
    Thank you. I yield back, Mr. Chairman.
    Chairman Kildee. Thank you very much.
    The gentleman from Pennsylvania, Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    I don't have a question, but I, first, want to just commend 
you and the ranking member for your focus on this very 
important issue and to all of our panelists for your work that 
in the end benefits the children of our nation. I think there 
is no more important priority here at home than giving that 
foundation to our children, our future leaders.
    And I especially want to highlight, as a fellow 
Pennsylvanian, to Chief Carroll for your service in uniform 
over many years and then also for you and your organization of 
really helping us in Washington understand the importance of 
these investments because, when we think of education-related 
or after-school programs, typically we don't make that jump 
that we need to to crime prevention, juvenile delinquency 
prevention and that societal benefit that goes well beyond. And 
when my seniors back home say, ``Well, why would we want to 
spend money on this?'' I say, ``Do you want your community to 
be safe, to have less crime?'' Your organization, D.A.'s, 
chiefs of police, others that have helped make that point help 
us better understand as a society the importance of these 
investments.
    So, again, I commend all of you for your testimony here 
today and your work day in and day out on important issues that 
impact our children.
    And, again, Mr. Chairman, thanks for your leadership on the 
issue.
    Yield back.
    Chairman Kildee. Again, I thank the gentleman for 
Pennsylvania for his hard work on this committee.
    The chair now recognizes the gentleman from Maryland, Mr. 
Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thanks for holding 
this hearing. It is extremely important, this issue, and the 
president's budget is troubling--alarming really in terms of 
what the impact would be on after-school programs.
    I would like any of you who wish to to comment on the idea 
that after-school programming is a place where we can model new 
or old components of what a well-rounded educational program 
ought to be for our children.
    What I find interesting is that the place where now we are 
talking about, giving kids an opportunity to get some exercise, 
which is something that has been cut out. It is a place where 
some of the specials, for which there is less room because of 
the overfocus that some people feel on math and reading has led 
to kind of a crowding out. And whether it is summer programming 
or after-school programming, it strikes me that we are seeing 
there a kind of laboratory for things that ought to become part 
of the regular school day and the regular school year.
    And so I would like to get your thoughts on that, anybody 
who wants to jump in.
    Ms. Kough. I think all children deserve rich experiences, 
and what I always tell people, the filter I use is I want all 
children to have what my children were able to have.
    And we have a school in Delaware, a Charter school, Kuumba 
Academy--inner city--and what they have done with their 21st 
Century program is they have a total enrichment summer program 
only. And during that summer program, they take the children on 
field trips. They have a partnership with the Christiana 
Cultural Center to introduce them to art and music.
    And I think coming from a reading and elementary school 
background, those experiences that you don't have--if you don't 
have those, and you try to go to a test or relate to something 
in a book, they are needed. And I think, again, 21st Century is 
the place where so many of these activities can happen that, as 
you had said, Representative Sarbanes, can't always happen at 
school, so I agree.
    Mr. Sarbanes. There is a bill that I have introduced on 
this side called the No Child Left Inside Act, which is a play 
on words with No Child Left Behind, but basically the concept 
is to try to get children out of the classroom and into nature 
and into the environment.
    Looking at research which indicates that the amount of 
unstructured time that children spend outside every day is 
about 4 minutes a day on average vs. about 4 or 5 hours of 
screen time--including television, video games, Internet and so 
forth--on a daily basis, and so the idea of getting kids into 
different settings--field trips--you know, mixing it up to make 
it more interesting and make it more valuable for them is 
something that really appeals to me.
    Let me ask you this--let me flip a question around on you 
and ask you this: Which kids out there do not need after-school 
programs?
    Ms. Little. I would like to take that one. All kids need 
after-school programs, but sometimes it happens more naturally. 
So what we see in the research we have done at Harvard is there 
is a consistent pattern of winners and losers when it comes to 
after-school opportunities. With middle-and upper-income kids, 
getting those opportunities naturally through better schools, 
through families, through extracurricular. And that is where, I 
think, is the beauty and strength of 21st Century is because 
they are targeting the kids who aren't getting it anywhere 
else. They are trying to level the playing field.
    So the simple answer is everyone needs an after-school 
program. It is just some kids are getting it, and some kids 
aren't.
    Mr. Sarbanes. Great. Thank you.
    Chairman Kildee. The chair now recognizes the gentlelady 
from California, Ms. Davis, for 5 minutes.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you, all, for being here.
    I am sorry I missed some of the earlier remarks, but I 
wonder if you could link into a little more specifically 
community service learning and the extent to which after-school 
programs which engage students in that way. Is there research 
to identify that that does make a difference down the line in 
terms of choices that children make? Do we know anything more 
about that?
    Ms. Little. I am happy to take that one first, and then 
maybe my colleagues would like to join in.
    Yes, we do know a fair amount about it. There are some very 
well-evaluated studies of apprenticeship models: the Citizens 
Schools program in Boston, the After School Matters program in 
Chicago, both of whom blend 21st Century funding with other 
funding. When the woman from Hawaii was asking about is A Plus 
evaluated, many folks get 21st Century money but don't call 
themselves a 21st Century program. So it is hard to tease out 
when you say the ``effects of a program,'' so I just want to 
clarify that.
    What we know is that apprenticeship models, where you are 
getting young people out and about in a community doing 
community service, partnering and apprenticing with people 
working in a community, have enormous effects, particularly for 
middle and high school kids because it gives them a window into 
what their lives could be like. It gives them a sense that, 
``Oh, this is a career path for me,'' or ``You know what? That 
is not what I want to do. I want to do something else.'' But it 
is an opportunity for them to experiment and get out, and we 
have very good research.
    It also helps keep them in high school. It improves greater 
on-time promotion from middle school to high school and more 
participation in college-level courses.
    Ms. Gamble. I would like to add also that, on a local level 
in Flint, one of the requirements in the Bridges program is for 
each site to have a youth advisory council, and that group--and 
it is open to any student. They don't have to be your best 
students. But those kids are the ones that are given leadership 
roles. They are also given community service activities that 
they usually choose on their own. They can apply for grant 
money through United Way, money that is specifically set aside 
for youth advisory councils. So they get great experience 
seeking resources and asking for resources.
    Mrs. Davis of California. I think, Ms. Gamble, if I could 
just go on. I am sorry. I don't mean to interrupt, but we only 
have a few minutes, and I wanted to try and----
    How then would this be affected by the president's budget? 
Because I think one of the things that we don't do very well is 
tell the story. We would probably have these cuts even if we 
told a good story, to be quite honest, because I think that in 
this atmosphere that we are experiencing right now, it is 
really not the efficacy of programs necessarily that we are 
looking at but other issues, other necessities that the 
administration feels in terms of other priorities that are 
being cut, quite unfortunately, I think, from our point of 
view.
    But I am just wondering whether--I have heard some very 
good stories in this regard, and I don't know whether we should 
do a far better job in trying to get that message out.
    I wanted to also just follow up in another way with the 
link, and I think that you have talked about connecting this 
within the schools. I know the programs that I have seen that 
are very effective is where the teachers have a very strong 
role in providing feedback to the people that are providing the 
programs about the students and what is happening and how they 
are able to bring that experience back into the classroom. And, 
again, it worries me that we are--there is a very important 
story to tell here. How can we do that better?
    Ms. Little. I think it is up to all of us to collect these 
stories and get them out.
    I think in terms of the voucher program specifically, there 
is no research that suggests that vouchers will improve 
programming, increase participation, increase access. There may 
be in 50 years, but there is no research to suggest that that 
will help the after-school arena in the problems it already 
faces, which is there aren't enough programs already. There is 
not enough funding already. Access to programs is problematic. 
We are still not reaching all the kids we need to reach. 
Vouchers aren't the first solution that would come to my mind.
    Mrs. Davis of California. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kildee. The chair recognizes the gentleman from 
Illinois, Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman.
    And I apologize if these questions were asked before, I 
came in late, and I hope you will bear with me.
    But my district in Illinois has 23 counties, and most of 
them are rural, and most people are aware of the lack of 
financial resources, but many are shocked to find out that 
there is a higher percentage of rural children that live in 
poverty when you compare that to children that live in nonrural 
areas. And, unfortunately, there are very few programs that 
provide academic enrichment in a safe and supervised 
environment.
    Ms. Gamble, in your testimony you briefly mentioned the 
scarcity and importance of after-school programs in the rural 
communities, and I wonder if you could touch on the need for 
those programs and the challenges that rural communities face?
    Also, how will drastic cuts to the 21st Century program and 
the shift from a grant program to a voucher program, in your 
opinion, impact rural communities?
    Ms. Gamble. Okay. As far as the rural population, we were 
just having that conversation in the backroom before we came in 
here because I had a discussion with one of my counterparts 
that heads up the rural 21st Century grant, and one of the 
questions I asked her was, ``What are the issues for rural 
kids?'' because I wanted to make sure I had that flavor in my 
presentation also. And she was saying that they get into the 
same kind of trouble at the same timeframe--3:00 to 6:00 P.M.--
might be a different type of trouble, but they have the same 
issues as the urban kids. And, like you said, 21st Century is 
one of the few pots of money that are available for rural 
communities so it would really hurt them.
    And I am not sure about your second question?
    Mr. Hare. Well, are there any other programs that you would 
suggest or that we could try in the rural communities? And, you 
know, I guess let me just--instead of just additional 
resources, more money, what other measures do you think 
Congress could do to improve access to after-school programs in 
rural communities? I mean, are there any additional programs 
that you would support or think that we should support? And 
then, again, once you have the programs, you have to have 
access to them in the rural communities, people have to go 
quite a ways just to get from where they want to go to where 
the program is going to be.
    Ms. Gamble. Right. I think transportation would be a big 
issue in rural communities. Perhaps some type of program where 
the activities could come to the children, not necessarily 
where they live, but in areas where enough kids could come 
together in one place and have the partners come to them, as 
opposed to the kids trying to figure out how they are going to 
get to a certain place.
    But I don't know of any particular pots of money or program 
that could serve in that capacity. But I just think we just 
need to be more creative. But the 21st Century money is a good 
anchor to begin with.
    Mr. Hare. Ms. Little, in my district there is a program 
called Homework Hangout, and it has done a wonderful job. The 
director of the program told me that, without the 21st Century 
funds, they would be forced to significantly reduce the number 
of staff for the tutoring services and would either have to be 
cut or eliminated and he would have to scale back on the number 
of hours. This is a program that is just incredibly effective, 
and I think, as the chief mentioned, we can pay now and invest 
now, or we can pay a tremendous price later.
    I am wondering--you know, you testified that research shows 
that programs need reliable, multiyear funding. And so, again, 
I would ask you, what would be the impact on the president's 
proposal on these programs to develop that maturity?
    Ms. Little. What we see really clearly is that a first-year 
program is arguably not going to be as well implemented as a 
third-or fourth-year program. And what do I mean by well 
implemented? The kinks aren't worked out. You know, it is like 
the first pancake off the griddle. It is not quite right.
    And as you move into maturity, what that buys for you is 
higher program quality. If you have better quality, kids are 
going to want to come so your participation goes up. 
Participation then feeds quality because, when you get to a 
certain size, professional development efforts kick in.
    So it is this symbiotic relationship between program 
quality and participation, but you are not going to get to the 
quality if you keep having to start a new program every year. 
It is the mature programs that we are seeing are doing a better 
job on the quality.
    Mr. Hare. Well, let me just thank you all.
    And, Chief, thank you. I think your remarks--again, you hit 
the nail on the head. People need to understand that, if we 
don't do these programs, if we let them go by the wayside, 
eventually we will see what happens when we don't fund these 
programs up, when we don't expand them.
    And as you said, Ms. Gamble, I have people in my district--
it is a huge district--23 counties. But young people, 
particularly in rural communities, have the same needs that the 
other kids have. And a lot of times they are sort of the--they 
are forgotten out there.
    So whatever we can do on our end to make sure that we get 
necessary funds, I think we need to do that. These programs 
work, and as I think my colleague Ms. Hirono mentioned, if it 
isn't broke, why are we trying to fix it?
    So I thank you, Mr. Chairman. I yield back.
    Chairman Kildee. Thank you very much, Mr. Hare. Appreciate 
that very much.
    Governor Castle?
    Mr. Castle. Well, thank you, Mr. Chairman.
    I had one additional question, and I may not be 100 percent 
sure I know how to ask this so--answer as you please.
    But I am looking at the budget summary, and apparently in 
this year we are spending $1,081,000,000 on this program.
    My first question--and I would like to get the answer from 
anybody--maybe I can't get it now from staff or whatever, but 
if somebody knows the answer of--or if any of you know it, I 
would love to hear it--of how much other money is put into 
these programs by foundations, United Way, states, perhaps 
local school districts or whatever? I don't know if anyone has 
actually summarized that someplace or another, but I would be 
interested in what extra money is actually put into the 
programs. So that is one question that I have in general, which 
I can learn after the hearing if that is what it would take.
    And the other question I have--and I am going to ask this 
of you, Ms. Kough--is in Delaware, as I understand it, this is 
a--we take the federal money--the $1,081,000,000, and it is 
apportioned among the states in accordance with population or 
whatever. Of course, we are a small state. And then we have in 
Delaware separate grantees which are set up; is that correct? 
And what are their responsibilities in terms of how long they 
are going to get funding and what they have to do to sustain 
themselves, et cetera?
    Ms. Kough. 21st Century is a competitive grant program, and 
so when I said we were in the middle of a competition, we put 
out a request for proposal. In Delaware we give 5-year grants. 
The first 3 years we are at full funding, the fourth year we 
give them a 25 percent cut, and the fifth year we give them a 
50 percent cut, and then they are to sustain.
    One of the biggest costs and barriers to sustaining, 
especially in rural areas, has been transportation. And one of 
the things, again, that has come from 21st Century--we have a 
site in Lake Forest, which is one of our rural areas, that 
developed a program, which I am not sure they would have had an 
after-school program if it hadn't been for 21st Century. And 
what they did is they worked out that we have a community 
agency actually providing services at the school level, and 
then they have worked out a partnership with their 
transportation within the school to get the kids home.
    So what we do, again, is 5-year grants. At the end of the 
sixth year, they know they have to be self-sustaining. In that 
5 years, we work with the business community and help them 
write a business plan, show them how to go after different 
money. So in Delaware, at least, they know that at the end of 
the fifth year, they are to be self-sustaining.
    This is our sixth competition. In the fourth round of 
competition, we did not grant any proposals because we didn't 
think they were strong enough. Our Cohort 1 has now gone, and 
out of six, we have four sustaining. So I think that is pretty 
good----
    Mr. Castle. So some have become self-sustaining, others 
don't quite make it or whatever it may be? Okay.
    Ms. Kough. Right. I hope that answers your question.
    Mr. Castle. No, it does. And I appreciate it.
    And I would love to get the other answer at some point from 
some knowledgeable person here who has looked at all these 
budget figures.
    I yield back, Mr. Chairman.
    Chairman Kildee. Thank you, Governor.
    First of all, this has been an excellent panel. I have been 
very impressed, and the interaction among the panel has been 
very, very good. I think all of you recognize that all of you 
have something to contribute to our understanding and insight 
into this program, and we don't always get that in these 
panels. Sometimes it is more argumentative out there. Here you 
have maybe a different nuance or a different approach, but I 
think you all recognize that all of you have something to 
contribute, and that has certainly benefited us. The governor 
and I were talking about that up here. So I deeply appreciate 
that.
    It is very interesting, too, Mr. Hare's question about 
rural--that the gentlelady from Flint, Michigan, which is about 
as urban as you can get, having talked to someone in the 
Democratic anteroom, where we gather all our people--Democrat 
or Republican--before these meetings--was able to give a good 
response, and I think that is an indication that there is 
discussion among yourselves here and other places. But you 
recognize that all of you have something to contribute, and all 
of you have contributed to this. One of the best panels--I have 
been in Congress for 32 years--this is a very memorable panel, 
very, very helpful to us.
    Governor Castle talked about is other money available, is 
other money leveraged? And I know that Mr. Bill White--William 
White--head of the Mott Foundation in Flint, is a very 
compassionate person, very informed person, but he is very 
concerned, rather than just giving, investing in the future of 
kids. So he looks at things where he can really do the most to 
help with these dollars, and he looks at this type of program 
as something that is really worth that private investment too, 
and he comes from that world where he wants some return on that 
investment. So he and Governor Riley, by the way, were very, 
very good friends and worked very closely together during the 
90s on this program.
    But, again, I can't thank you enough. This panel has been 
very, very helpful to us.
    And as previously ordered, members will have 7 calendar 
days to submit additional materials for the hearing record. Any 
member who wishes to submit follow-up questions in writing to 
the witnesses should coordinate with the majority staff within 
the requisite time.
    And with great thanks and without objection, the hearing is 
adjourned.
    Thank you very much.
    [The statement of Ms. Woolsey follows:]

    Prepared Statement of Hon. Lynn C. Woolsey, a Representative in 
                 Congress From the State of California

    Every child deserves a safe place to go after school. The 21st 
Century Community Learning Centers provides millions of children with 
that safe place where they can do their homework, receive tutoring 
help, and play in a safe area away from the dangers of drugs and gangs. 
These after school sites also provide our nation's poorest students 
with the extra help they need to succeed in life by expanding 
children's access to tutoring and enrichment services. However, more 
than 14 million children who need after school services do not have 
access because there aren't enough programs being funded.
    Now, more than ever, we need to help working families by providing 
safe places for children to go after school. Today, in about 65% of 
two-parent families, both parents work and 75% of all mothers are in 
the workplace. Not only do children need a safe place to go after 
school where they can learn and play, but working parents need to know 
their children are safe when they can't be home to watch them.
    That is why the Administration's proposal to cut funding to 21st 
Century Community Learning Centers program is such a misguided 
approach. If the proposed cut goes through, between 635,000 and over a 
million students would be forced out of after school programs. Already, 
14 million children are not able to benefit from after school services 
because of lack of funding. This cut could add 1.1 million more 
children to this group of students who go home alone after school and 
not to a safe environment. Our children deserve better. That's why we 
should block the Administration's recommendation to cut funding and 
increase funding to these valuable programs so that no child has to go 
home alone. I look forward to working with my colleagues to ensure that 
21st Century Community Learning Centers get the support they need to 
provide our nation's neediest children with a safe place to learn and 
play after school. Thank you.
                                 ______
                                 
    [Additional submissions by Mr. Kildee follow:]

               The National Coalition for Public Education,
                                                    March 10, 2008.
Committee on Education and Labor, U.S. House of Representatives, 
        Washington, DC.
    Dear Representative: A hearing is scheduled before the U.S. House 
of Representatives Committee on Education and Labor to consider the 
federal afterschool initiative termed 21st Century Community Learning 
Centers. The National Coalition for Public Education (NCPE) strongly 
opposes programs that allow public money to be diverted to private 
schools through vouchers, and therefore urges you to oppose President 
Bush's proposal to replace the current federal afterschool initiative, 
called 21st Century Community Learning Centers, with an unworkable 
voucher program with a catchy new name: 21st Century Learning 
Opportunities Scholarships.
    For approximately 1.5 million children, the 21st Century Community 
Learning Center program provides peace of mind, safety and inspires 
learning. Their value has been tested and proven. According to the U.S. 
Department of Education, nearly half the children who regularly attend 
these centers raise their grades in reading/language arts and 
mathematics. Three-quarters complete more homework and participate more 
in class. In 26 statewide referenda from coast to coast through 
November 2007 millions of American voters have rejected school vouchers 
or their variants by an average margin of two to one.
    In contrast, the proposal for the so-called ``learning 
opportunities scholarships'' by the President is an unproven, 
ideologically driven voucher scheme that would permit federal funding 
of pervasively sectarian instruction and activities, and threaten the 
quality afterschool learning opportunities.
    NCPE has consistently opposed the funneling of public money to 
private and religious schools through such mechanisms. We strongly urge 
you to reject such private school proposals that have been set forth by 
the Administration. We thank you for your consideration of our views on 
this important issue. If you have any questions or would like 
additional information, please contact Mary Kusler at (703) 875-0733 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4898fb1b7a8a1b684a5a5b7a5eaabb6a3ea">[email&#160;protected]</a>
            Sincerely,
             American Association of School Administrators,
                  American Association of University Women,
                            American Civil Liberties Union,
                           American Federation of Teachers,
                             American Humanist Association,
                                 American Jewish Committee,
                           Americans for Religious Liberty,
   Americans United for the Separation of Church and State,
               Association of Educational Service Agencies,
             Baptist Joint Committee for Religious Liberty,
                         International Reading Association,
      National Association of Elementary School Principals,
       National Association of Secondary School Principals,
        National Association of State Directors of Special 
                                                 Education,
                            National Education Association,
               National Rural Education Advocacy Coalition,
                        National School Boards Association,
                               People for the American Way,
                             Secular Coalition for America,
                                  Union for Reform Judaism,
                                   Women of Reform Judaism.
                                 ______
                                 
                                                    March 10, 2008.
Hon. Dale E. Kildee, Chairman; Hon. Michael N. Castle, Ranking Member,
House Early Education, Elementary and Secondary Education Subcommittee, 
        Rayburn House Office Building, Washington, DC.
    Dear Chairman Kildee and Ranking Member Castle: On behalf of the 
95,000 school board members who serve the nation's 49 million students 
in our local public school districts, the National School Boards 
Association (NSBA) respectfully requests that this letter be entered 
into the record in conjunction with tomorrow's hearing on the 
Administration's FY2009 budget proposal regarding afterschool programs.
    NSBA is opposed to the plan put forward by the Administration to 
cut approximately $300 million from the 21st Century Community Learning 
Centers program and to convert the program into a voucher experiment. 
Under the proposal, the remaining $800 million essentially would be 
given to individual parents to spend on afterschool programs at their 
discretion.
    Currently, states distribute grants competitively to afterschool 
programs, typically for a 3- to 5-year period, assisting organizations 
with planning and developing a long-term quality program with a 
reliable and stable funding stream. Almost 1.5 million children benefit 
from the 21st Century Community Learning Centers program, with nearly 
half the students demonstrating improvement in reading, language arts 
and math, and approximately three-quarters completing more homework and 
increasing class participation, according to the U.S. Department of 
Education.
    The Administration's voucher plan would eliminate public 
accountability, undermine afterschool programs and jeopardize their 
quality by introducing a far more unstable and uncertain funding 
stream. Programs may not reasonably be able to budget for out years if 
the Administration's voucher proposal were adopted.
    The plan is an attempt to incorporate the unproven, unpopular and 
unaccountable concept of vouchers into federal education policy. We 
urge the subcommittee to closely scrutinize and oppose this current 
proposal.
    Thank you for considering our views on this issue. If you have any 
questions or would like further information, please contact Marcus 
Egan, Director of Federal Affairs, at (703) 838-6707, or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="771a1210161937190415165918051059">[email&#160;protected]</a>
            Sincerely,
          Michael A. Resnick, Associate Executive Director,
                                National School Boards Association.
                                 ______
                                 
    [Whereupon, at 11:22 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
